 Interagency Coordination
Group Of Inspectors General
   For Guam Realignment
       Annual Report




         Section 2835 Of The National Defense
        Authorization Act For Fiscal Year 2010




                   [February 1, 2013]
                      (Public Law 111-84)
On October 28, 2009, President Obama signed Public Law 111-84, “The National Defense Authorization
Act for FY 2010.” Section 2835 of the Act established the Interagency Coordination Group of Inspectors
General for the Guam Realignment with the following duties.



                                    PUBLIC LAW 111-84
         It shall be the duty of the Interagency Coordination Group to conduct, supervise,
         and coordinate audits and investigations of the treatment, handling, and expenditure
         of amounts appropriated or otherwise made available for military construction on
         Guam and of the programs, operations, and contracts carried out utilizing such funds,
         including:

                  (A) the oversight and accounting of the obligation and expenditure of
                      such funds;
                  (B) the monitoring and review of construction activities funded by such
                      funds;
                  (C) the monitoring and review of contracts funded by such funds;
                  (D) the monitoring and review of the transfer of such funds and
                      associated information between and among departments, agencies,
                      and entities of the U.S. and private and nongovernmental entities;
                  (E) the maintenance of records on the use of such funds to facilitate
                      future audits and investigations of the use of such funds; and
                  (F) the monitoring and review of the implementation of the Defense
                      Posture Review Initiative relating to the realignment of military
                      installations and the relocation of military personnel on Guam.

         Not later than February 1 of each year, the chairperson of the Interagency Coordination
         Group shall submit to the congressional defense committees, the Secretary of Defense,
         and the Secretary of the Interior a report summarizing, for the preceding calendar year,
         the activities of the Interagency Coordination Group during such year and the activities
         under programs and operations funded with amounts appropriated or otherwise made
         available for military construction on Guam. Each report shall include, for the year
         covered by the report, a detailed statement of all obligations, expenditures, and revenues
         associated with such construction.
                          Message from the Chairperson,
                         Interagency Coordination Group

I am pleased to provide the fourth annual report of the Interagency Coordination Group of Inspectors
General for Guam Realignment. This annual report, as required by Public Law 111-84, “The
National Defense Authorization Act for Fiscal Year 2010,” October 28, 2009, covers the reporting
period from January 1, 2012, through December 31, 2012.

The Interagency Coordination Group focuses on challenge areas for the realignment, including
operational readiness, quality of life, contract management, contractor oversight, asset accountability,
and financial management. The group considers risks associated with these challenges when
developing oversight initiatives.

Two planning groups support the Interagency Coordination Group: the Interagency Planning
Group, consisting of representatives of our interagency partners, and the Joint Planning Group,
consisting of representatives of the Department of Defense oversight partners. Both groups are led
by Department of Defense Inspector General staff, which provide briefings, track trends, coordinate
audit de-confliction, and present issues to the Interagency Coordination Group for consideration.

I want to thank those participating as part of the Interagency Coordination Group and those Federal
and Defense agencies supporting this effort. As the group goes forward, Congress, the Department,
and senior leadership throughout the U.S. Government will use their oversight efforts to minimize
the impact on the citizens of Guam, improve the economy and efficiency of vital programs and
operations, and sustain the readiness of U.S. forces.




                                    Lynne M. Halbrooks
                                    Principal Deputy Inspector General




                                                                                Guam Realignment Report
                                                                                        February 1, 2013
                                 EXECUTIVE SUMMARY
      Public Law 111-84, “The National Defense Authorization Act for Fiscal Year 2010,”
      (NDAA 2010), October 28, 2009, section 2835, designates the Inspector General of the
      Department of Defense as the Chairperson of the Interagency Coordination Group of
      Inspectors General for Guam Realignment. The Chairperson is required to provide an annual
      report to the congressional defense committees, the Secretary of Defense, and the Secretary
      of the Interior on the activities of the Interagency Coordination Group and the programs
      and operations funded with amounts appropriated or otherwise made available for military
      construction on Guam. This report contains data collected from multiple organizations. The
      Department of Defense Office of Inspector General did not independently verify, analyze, or
      validate the data provided.

      The Defense Posture Review Initiative serves as the framework for the future of U.S. force
      structure in Japan and the U.S. Marine Corps (Marine Corps) realignment to Guam. The
      purpose of the Defense Posture Review Initiative is to develop a common security view; to
      review roles, missions, and capabilities; and to review force posture changes. Included in
      these initiatives are the relocation of Marine Corps personnel to Guam, the return of selected
      bases and facilities to the government of Japan, and the consolidation of some of the remaining
      U.S. bases and facilities in Guam. Recent discussions between the U.S. and the government
      of Japan, through the Security Consultative Committee, resulted in significant changes to the
      realignment plan as well as funding. The Joint Guam Program Office (JGPO) continues to
      facilitate, manage, and execute requirements associated with the Guam Realignment.

      This report identifies the programs and operations funded with appropriated amounts or funds
      otherwise made available for military construction on Guam in calendar year 2012.

         •	 DoD obligated approximately $52.1 million and expended approximately
            $128.6 million. Other Federal agencies obligated approximately $3.6 million and
            expended approximately $8.0 million. (Section 1)
         •	 DoD identified 168 projects and programs, totaling approximately $124.2 million,
            with an estimated completion cost of approximately $386.8 million. Other Federal
            agencies identified 26 projects and programs, totaling approximately $8.7 million,
            with an estimated completion cost of approximately $26.9 million. (Section 2)
         •	 The government of Japan (GOJ) provided no revenues in calendar year 2012, and
            earned approximately $2.2 million in interest associated with revenues contributed to
            date. (Section 3)
         •	 DoD identified operating expenses of approximately $24.9 million. Other Federal
            agencies identified operating expenses of approximately $425.2 thousand. (Section 4)
         •	 DoD and other Federal agencies identified 88 contracts and 12 grants, valued at
            approximately $38.3 million. (Section 5)




Guam Realignment Report
February 1, 2013
                                      Table of Contents
Guam Realignment Posture Changes        					                            1

Efforts of the Interagency Coordination Group 					                       3
		          (Section 2835(e)(1))	


Section 1. U.S. Government Obligations and Expenditure Data 		           9
           (Section 2835(e)(1)(A))


Section 2. 	Project and Program Costs						                             13
             (Section 2835(e)(1)(B))


Section 3. Government of Japan Revenue						                            29
           (Section 2835(e)(1)(C))


Section 4. Operating Expenses								                                   33
           (Section 2835(e)(1)(D))


Section 5. Contracts, Grants, Agreements, or Other Funding		            37
		         Mechanisms Data (Section 2835(e)(1)(E))


Acronyms								                               		                       66
	




                                                     Guam Realignment Report
                                                             February 1, 2013
  U.S. Navy aircraft carrier navigates to the Port of Guam.




Guam Realignment Report
February 1, 2013
Guam Realignment Posture Changes
Congressional Actions
On January 3, 2013, the President signed the 2013 National Defense Authorization Act (NDAA 2013).
Section 2832 of the NDAA 2013 prohibits obligations or expenditures for the Guam realignment, including
funds provided by the GOJ until:
      1.	 the Commander of the U.S. Pacific Command provides to the congressional defense committees
          an assessment of the strategic and logistical resources needed to ensure the distributed lay-down
          of members of the Marine Corps in the U.S. Pacific Command Area of Responsibility meets the
          contingency operations plans;
      2.	 the Secretary of Defense submits to the congressional defense committees master plans for
          the construction of facilities and infrastructure to execute the Marine Corps distributed lay-
          down on Guam and Hawaii, including a detailed description of costs and the schedule for such
          construction;
      3.	 the Secretary of the Navy submits a plan to the congressional defense committees detailing the
          proposed investments and schedules required to restore facilities and infrastructure at Marine
          Corps Air Station Futenma; and
      4.	 a plan coordinated by all pertinent Federal agencies is provided to the congressional defense
          committees detailing descriptions of work, costs, and a schedule for completion of construction,
          improvements, and repairs to the non-military utilities, facilities, and infrastructure, if any, on
          Guam affected by the realignment of forces.

Three exceptions allow the Secretary of Defense to expend funds:
      1.	 to carry out additional analysis or studies required by the National Environmental Policy Act of
          1969 for proposed actions on Guam or Hawaii;
      2.	 to initiate planning and design of construction projects on Andersen Air Force Base and Andersen
          South; and
      3.	 to carry out any military construction project for which an authorization of appropriation has
          been provided.


Security Consultative Committee
In April 2012, the U.S. and GOJ held another round of Security Consultative Committee talks. Secretary
of State, Hillary Rodham Clinton; Secretary of Defense, Leon Panetta; Minister for Foreign Affairs,
Koichiro Gemba; and Minister of Defense, Naoki Tanaka attended the meeting. Also referred to as
the “2+2” talks, the principals announced their intention to adjust several components of the previous
agreements. Specifically, the parties agreed to:
       1.	 adjust the composition of the Marine Corps units on Guam and Okinawa;
       2.	 establish a Marine Air Ground Task Force in Okinawa, Guam and Hawaii;
       3.	 authorize the strength of approximately 5,000 Marine Corps personnel in Guam;
       4.	 de-link the relocation of the III Marine Expeditionary Force to Guam from progress on the
           Futenma Replacement Facility;
       5.	 reaffirm that Japan’s financial commitment would only be direct cash and would no longer
           provide $3.29 billion in equity and loans to Special Purpose Entities; and
       6.	 commit to contribute mutually to fund refurbishment projects at Marine Corps Air Station
           Futenma until the Futenma Replacement Facility is fully operational.



                                                                                 Guam Realignment Report
                                                  1
                                                                                         February 1, 2013
  Andersen Air Force Base, Guam, is photographed from an F-16D
  Fighting Falcon during Exercise Cope North.




Guam Realignment Report
                                                   2
February 1, 2013
Efforts of the Interagency
Coordination Group




                                             	 Section 2835(e)(1)




                             Guam Realignment Report
                 3
                                     February 1, 2013
                      Efforts of the Interagency Coordination Group of
                      Inspectors General for Guam Realignment

                      Public Law 111-84, “The National Defense Authorization Act for Fiscal Year 2010,” (NDAA 2010),
                      October 28, 2009, section 2835, designates the Inspector General of the DoD as the Chairperson of the
                      Interagency Coordination Group of Inspectors General for Guam Realignment (ICG). Additionally, the
                      Inspector General of the Department of the Interior (DOI) is a required member.

                      The ICG Chairperson continues to oversee the development of a strategy to conduct, supervise, and
                      coordinate oversight activities to monitor the use of funding for the Guam realignment. To assist with
                      the development of this strategy, the ICG Chairperson established the Guam Interagency Planning Group.
                      The Interagency Planning Group met on June 20, 2012 to discuss developments, share information, and
                      coordinate and de-conflict agency audit plans.

                      ICG OVERSIGHT DUTIES
                      Section 2835 of the NDAA 2010 requires the ICG to provide objective supervision of audits and
                      investigations, to include inspections, evaluations, and reviews, relating to the programs and operations
                      funded with amounts appropriated or otherwise made available for military construction on Guam.
                      Specifically, the ICG oversight duties are to conduct, supervise, and coordinate audits and investigations
                      of the treatment, handling, and expenditure of amounts appropriated for military construction on Guam.

                      SUMMARY OF AUDIT REPORTS COMPLETED IN 2012
                      This year, members of the Interagency Coordination Group completed eight audits related to the
                      realignment of forces to Guam. The DoD Office of Inspector General (OIG) completed three reports,
                      the Naval Audit Service completed one report, the Defense Contract Audit Agency (DCAA) completed
                      two reports, and the DOI completed two reports. The reports cover a variety of topics related to the
                      realignment effort.

                      The DoD OIG audits for 2012 focused on engineering, joint basing, and medical staffing at the Port
                      of Guam. The DoD OIG issued Report No. DODIG 2012-052, “Report on the Program and Contract
                      Infrastructure Technical Requirements Development for the Guam Realignment Program,” on
                      February 8, 2012. The objective of this audit was to assess the development of programs and contract
                      infrastructure technical requirements to include cost estimates and budgets for the Guam Realignment
                      Program. The Technical Assessment included seven areas of infrastructure that would be impacted by
                      the realignment of forces to Guam including the port, roads, power production and transmission, drinking
                      water, waste water, solid waste, and communication. The DoD OIG found that the Guam commercial
                      port bulkhead was at significant risk of major structural failure and issued a memorandum to the U.S.
                      Department of Transportation, Maritime Division (MARAD) addressing this risk. Also, the DoD OIG
                      found that the government of Guam and DoD had only basic 911 services that could not process a caller’s
                      telephone number and location automatically, as specified in Public Law 108-494. MARAD stated
Section 2835(e)(1)




                      that it initiated actions to ensure that the structural deterioration to the bulkhead was identified. The
                      Commander of Navy Installations Command stated that Operational Navy (N2/N6) instead of the Joint
                      Region Marianas was responsible for enhanced Guam Emergency Communications. Therefore, DoD
                      OIG changed the finding to address it to Operational Navy (N2/N6).

                      The DoD OIG issued Report No. DODIG-2012-054, “Marine Corps Transition to Joint Region Marianas
                      and Other Joint Basing Concerns,” on February 23, 2012. The objective of the audit was to determine
                      whether the joint bases adhered to the intent of the 2005 Base Realignment and Closure recommendation,
                      Joint Basing Implementation Guidance, and subsequent guidance related to the Marine Corps relocation
                      to Guam. The report stated that DoD adequately implemented the joint basing program at Joint Base
	




                     Guam Realignment Report
                                                                              4
                     February 1, 2013
                                                        Efforts of the Interagency Coordination Group of
                                                               Inspectors General for Guam Realignment

Pearl Harbor, Hawaii, and Joint Region Marianas. However, the audit identified areas for improvement
including tracking funds from the Marine Corps to Joint Region Marianas, maintaining equity with other
Services in Guam, and distributing Marine Corps Exchange profits. Also, the DoD OIG reported that the
Marine Corps could improve the transition process to Joint Region Marianas through increased planning
and coordination in key transition areas. The Director, Joint Guam Program Office stated that the Deputy
Chief of Naval Operations, Director, Shore Readiness, will work with the other Services to review and
refine existing policies as part of the duties of the Senior Joint Base Working Group. Also, the director
stated that the Concept of Partnership between the Navy and Marine Corps specifies how funding will
be handled and that future determinations will be made by the Navy and Marine Corps regarding the
transition and respective tracking of funds. Further, the director stated that the Navy and Marine Corps
have developed functional working groups designed to develop optimal organization and staffing at the
installation and regional levels. He also stated that the groups are focusing on support required to be in
place before the Marine Corps relocates.

The DoD OIG issued Report No. DODIG-2012-088, “Guam Medical Staff Plan Needs Improvement to
Ensure Eligible Beneficiaries Will Have Adequate Access to Health Care,” on May 16, 2012. This is the
second in a series of reports regarding the adequacy of medical plans related to the realignment of Service
members and their families to Guam. The objective of this audit was to determine whether the methodology
and plan used to determine the number and type of medical staff needed for eligible beneficiaries in Guam
ensured that beneficiaries had adequate access to care given the expected population increases resulting
from the realignment to Guam. In this report, the DoD OIG stated that Navy Medicine West’s plan for
determining medical staff requirements did not adequately identify and assess the risks associated with not
expanding specialty care in Guam commensurate with the projected beneficiary population increase from
14,195 in FY 2005 to 37,467 in FY 2020. Navy Medicine West management comments were partially
responsive or not responsive to the recommendations.

The Naval Audit Service issued Report No. N2012-0047, “Department of the Navy Fiscal Year 2013
Military Construction Projects Related to Relocations of Marine Corps to Guam,” on June 18, 2012. The
objective of the audit was to verify the scope requirements for selected Marine Corps proposed FY 2013
Military Construction (MILCON) related to the Guam/Okinawa relocation and to verify that MILCON
projects represented valid requirements and were sufficiently supported and properly scoped. The Naval
Audit Service determined that the FY 2013 MILCON projects related to the relocation of Marines from
Okinawa, Japan to Guam represented valid needs but all four projects contained over-scoped or under-
scoped line items, totaling approximately $70.28 million. The Commandant of the Marine Corps agreed
to delete over-scoped items and unsupported line items from the project.

The DCAA issued Report No. 03541-2012A17741720, “Independent Audit of HDR Environmental
Operations and Construction, Inc., Post Award Accounting System,” on May 22, 2012. The subject of
the audit was to determine whether the accounting system was adequate for accumulating cost under             Section 2835(e)(1)
Government contracts and whether the billing procedures were adequate for the preparation of cost
reimbursement claims. DCAA determined that HDR Environmental, Operations and Construction Inc.’s
accounting system was adequate for accumulating and billing cost under Government contracts.

The DCAA issued Report No. 04201-2012G19100001, “Independent Audit of Adequacy and Compliance
of DZSP 21 LLC’s Disclosure Statement Revision No.6 Effective Date October 2005 with Amendments
in Revision No. 7, Effective December 31, 2007,” on August 31, 2012. The subject of the audit was to
                                                                                                              	




                                                                                Guam Realignment Report
                                                 5
                                                                                        February 1, 2013
                      Efforts of the Interagency Coordination Group of
                      Inspectors General for Guam Realignment

                      determine whether DZSP 21 LLC’s revised disclosure statement, with amendments, adequately described
                      the cost accounting practices and to evaluate the consistency of the revised cost accounting practices with
                      actual practices. DCAA determined that DZSP’s accounting system was adequate for accumulating and
                      billing costs under Government contracts.

                      The Department of Interior Office of Inspector General (DOI OIG) issued Report No.
                      HI-EV-GUA-0001-2011, “Evaluation of Guam Power Authority,” on August 9, 2012. The objective of the
                      audit was to examine the Guam Power Authority’s (GPA) ability to properly account for the condition and
                      maintenance of key infrastructure components. The objective also included an assessment of efforts to
                      expand service capacity, improve reliability, assure continuity of service for critical facilities, prepare for
                      contingencies, and incorporate alternative energy sources. The DOI OIG reported that despite significant
                      improvements made to its generation, transmission and distribution facilities in the past years, GPA was
                      still facing an unprecedented challenge in keeping up with its aging infrastructure and preparing for the
                      impending military buildup. As a result, several system improvements were still needed to increase
                      reliability, maintain the workforce and key infrastructure components, and incorporate renewable energy.
                      Further, DOI OIG found that although GPA has a positive relationship with the military, differing priorities
                      between DoD and GPA remained unresolved, which may potentially place additional strain on GPA and its
                      customers. DOI OIG provided five recommendations to the Governor of Guam for improvements needed
                      to increase reliability, maintain key infrastructure components, incorporate renewable energy, and address
                      its aging infrastructure.

                      The DOI OIG issued Report No. HI-EV-OIA-0003-2012 “Final Evaluation Report on Guam Public
                      Safety,” on November 20, 2012. DOI OIG reported that despite efforts made by the public safety agencies,
                      the Guam Fire Department and Guam Police Department were unable to meet the current needs of Guam
                      and would be unable to meet the needs of the anticipated increase in population. Unless shortcomings in
                      staffing, infrastructure, vehicles, maintenance, and training were addressed, the citizens of Guam would
                      continue to be at risk from natural and manmade disasters, as well as the possible increase in crime
                      associated with population growth. Guam Homeland Security, which is 100 percent Federally funded,
                      meets Guam’s current needs, but as Federal funding decreases, it may be unable to maintain its current
                      level of service without local funding. The Government of Guam stated that they are working toward
                      enacting a service delivery matrix and continuous review process; and they are going to examine the level
                      of service the citizenry of Guam desires. Also, the Government of Guam replied that they are planning
                      Government-wide spending cuts taking effect before the next fiscal year with funds saved to improve
                      operations.

                      ON GOING OR PLANNED AUDITS
                      The Department of Transportation Office of Inspector General is currently conducting a review of the
                      MARAD Port Infrastructure Development Projects. The objective of this audit is to evaluate MARAD’s
Section 2835(e)(1)




                      execution of its port infrastructure development responsibilities. Specifically, the Department of
                      Transportation Office of Inspector General is evaluating MARAD’s: (1) oversight and risk management
                      of port infrastructure development projects; and (2) oversight of port infrastructure projects’ contract
                      planning and administration.

                      The Naval Audit Service will conduct an audit of the Department of the Navy’s FY 2015 MILCON
                      projects related to the Marine Corps Guam relocation efforts. Specifically, the objective of this audit is to
                      verify that project scope requirements for selected MILCON projects related to the Marine Corps Guam
                      relocation represent a valid need, are properly scoped, and are sufficiently supported.
	




                     Guam Realignment Report
                                                                                6
                     February 1, 2013
                                                        Efforts of the Interagency Coordination Group of
                                                               Inspectors General for Guam Realignment



2012 INVESTIGATIONS
From January 1, 2012, to December 31, 2012, the Naval Criminal Investigative Service, engaged in five
investigations related to programs and operations funded with amounts appropriated or otherwise made
available for military realignment construction on Guam, as shown in Table 1.

        Table 1. Guam Military Realignment Investigative Working Group Investigations
                            (January 1, 2012 – December 31, 2012)
                                                            Type of                Status of
                    Investigative Agency                 Investigation           Investigation
        Naval Criminal Investigative Service       Bribery                Closed
        Naval Criminal Investigative Service       Product Substitution   Open

        Naval Criminal Investigative Service       Bribery                Closed

        Naval Criminal Investigative Service       General Procurement    Closed
        Naval Criminal Investigative Service       Procurement Fraud      Closed

        Source: Naval Criminal Investigative Service response to DoD OIG data call, 1/23/2013.




                                                                                                           Section 2835(e)(1)
                                                                                                           	




                                                                              Guam Realignment Report
                                               7
                                                                                      February 1, 2013
  Marine Corps CH-53 helicopters prepare for flight.




Guam Realignment Report
                                                       8
February 1, 2013
                                                   1
U.S. Government Obligations and
Expenditure Data




                                               	 Section 2835(e)(1)(A)




                              Guam Realignment Report
                   9
                                      February 1, 2013
                         Section 1: U.S. Government Obligation and
                         Expenditure Data (Section 2835(e)(1)(A))

                         Public Law 111-84 states that not later than February 1 of each year, the ICG Chairperson must report on
                         the programs and operations funded with amounts appropriated or otherwise made available for military
                         construction on Guam. Each report shall include a detailed statement of all obligations and expenditures.

                         U.S. FUNDING FOR REALIGNMENT
                         Construction of new facilities, improvements to existing facilities, and improvements to infrastructure
                         will result from the movement of the Marine Corps forces to Guam. As reported by the Office of the
                         Under Secretary of Defense (Comptroller)/Chief Financial Officer on January 3, 2013, no funds were
                         appropriated for military construction in 2012.

                         DoD OBLIGATIONS AND EXPENDITURES
                         The DoD OIG requested the Under Secretary of Defense (Comptroller/ Chief Financial Officer); Assistant
                         Secretary of the Army (Financial Management and Comptroller); Assistant Secretary of the Navy
                         (Financial Management and Comptroller); Assistant Secretary of the Air Force (Financial Management
                         and Comptroller); Director, Defense Finance and Accounting Service; and the Program Resource Director/
                         Chief Financial Officer, Joint Guam Program Office to provide obligation and expenditure data supporting
                         the Marine Corps realignment to Guam. For calendar year (CY) 2012, DoD obligated approximately
                         $52.1 million and expended approximately $128.6 million. Table 2 identifies the amounts obligated and
                         expended for each appropriation from January 1 to December 31, 2012.

                                     Table 2. DoD Obligations and Expenditures Related to the Guam Realignment
                                                       (January 1, 2012 – December 31, 2012)
                                                 Appropriation                           Obligations       Expenditures
                               MILCON, Navy and Marine Corps                             $22,965,287        $87,295,468

                               GOJ                                                         3,615,619         24,542,443

                               Operation and Maintenance, Marine Corps                    25,453,626         16,677,668

                               Family Housing Operation and Maintenance, Navy and            115,217             89,213
                               Marine Corps
                                Total                                                    $52,149,749       $128,604,792

                              Source: Department of the Navy’s responses to DoD OIG data call, 1/11/2013 and 1/16/2013.


                         PRIOR CALENDAR YEAR ACCOUNTING ERRORS AND
                         ADJUSTMENTS
Section 2835(e)(1)(A)




                         Due to accounting code errors, the Marine Corps under-reported expenditures for CY 2011 by approximately
                         $14 million. Those expenditures were reported with CY 2012 data. Table 3 shows the previous and
                         amended CY obligations and expenditures.

                            Table 3. Marine Corps Corrections to the Previously Reported Obligations and Expenditures
                                                            information for CY 2011

                                                Appropriation                       Obligations        Expenditures
                                 Previous CY 2011 O&M                               $34,751,377        $17,390,642

                                 Amended CY 2011 O&M                                 36,807,339         31,697,712
                                Source: Department of the Navy’s response to DoD OIG data call, 12/10/2012.
	




                        Guam Realignment Report
                                                                                    10
                        February 1, 2013
                                                              Section 1: U.S. Government Obligation and
                                                                Expenditure Data (Section 2835(e)(1)(A))

In addition, the US Army Pacific Command conducted an adjustment of $1,474 to the total obligations
reported during CY 2010 in relation to an Archeological Survey project in support of Guam. The Army
reported this adjustment to the total obligations with the CY 2012 data. Table 4 shows the previous and
amended CY obligations and expenditures.

                   Table 4. Army Adjustment to the Previously Reported Obligations
                                      information for CY 2010
                                Agency               Obligations            Expenditures
                Previous CY 2010 O&M                   $160,893                  N/A

                Adjustment                               (1,474)                 N/A

                Adjusted CY 2010 O&M                    159,419                  N/A

               Source: Department of the Army’s response to DoD OIG data call, 1/14/2012.


OTHER GOVERNMENT AGENCIES
For CY 2012, the Department of Transportation (DOT) reported obligations of approximately $3.6
million and expended approximately $8.0 million related to programs and operations funded with
amounts appropriated or otherwise made available for military construction on Guam. Table 5 shows
other government agency obligations and expenditures. 1

                   Table 5. Other Government Agency Obligations and Expenditures
                                   Related to the Guam Realignment
                                (January 1, 2012 - December 31, 2012)
                                Agency          Obligations            Expenditures1
                      DOT                       $3,639,946              $7,988,770

                        Total                   $3,639,946              $7,988,770

                     Source: DOT’s response to DoD OIG data call, 1/10/2013.




                                                                                                           Section 2835(e)(1)(A)




    US Army Pacific Command personnel did not provide any adjustments to the expenditures.
                                                                                                           	




1



                                                                               Guam Realignment Report
                                               11
                                                                                       February 1, 2013
  U.S. Navy attack submarine in the Port of Guam.




Guam Realignment Report
                                                    12
February 1, 2013
                                       2
Project and Program Costs




                                         	 Section 2835(e)(1)(B)




                      Guam Realignment Report
              13
                              February 1, 2013
                              	      Section 2835(e)(1)(B)
                          Public Law 111-84 requires the ICG annual report to contain a detailed statement on the costs incurred to date and costs estimated to complete
                          each DoD or DOI military construction project or program. The report must identify all projects and programs associated with the realignment
                          of military installations and the relocation of military personnel to Guam.

                          DoD AND GOJ PROJECT AND PROGRAM LIST




February 1, 2013
                          For CY 2012, DoD identified 168 projects and programs, totaling approximately $124.2 million, with an estimated completion cost of $386.8
                          million. Specifically, Naval Facilities Engineering Command, Pacific (NAVFACPAC) reported 47 projects, Marine Corps Headquarters
                                                                                                                                                                                 (Section 2835(e)(1)(B))




                          reported 119 projects, and the Army reported 2 projects that were directly associated with the realignment of military installations and military




Guam Realignment Report
                          personnel to Guam. The NAVFACPAC incurred costs of approximately $111.8 million with an estimated completion cost of approximately
                          $334.6 million. The Marine Corps Headquarters projects incurred costs of approximately $12.3 million with an estimated completion cost
                          of approximately $52.1 million. The Army Headquarters projects resulted in a correction to cost incurred of $1.5 thousand. Table 6 identifies
                          DoD and GOJ projects and programs, and their associated costs.21
                                                                                                                                                                                 Section 2: Project and Program Costs




                                                                             Table 6. Costs for DoD and GOJ Projects and Programs
                                                                                                                                                  Cost Incurred
                                                                                                                     Total       Cost Incurred     January 1 -     Estimated
                                                                                                                   Estimated     to Date (US or   December 31,      Costs to
                                               Project                        Description/Scope      Start Date      Cost         GOJ Funds)          2012         Complete
                                                                                                    NAVFACPAC




      14
                              J001, GOJ Construction; Utilities & Site    UTIL & SITE IMPRV, PH 1    11-Aug-11    $169,000,000   $30,530,585      $18,156,995     $138,469,415
                              Improv, PH 1 (Apra Harbor)                  (APRA HARBOR)
                              J001A, GOJ Construction; Utilities & Site   UTIL & SITE IMPRV, PH 1    11-Aug-11      27,000,000     8,016,023        6,291,600       18,983,977
                              Improv., PH 1 (AAFB)                        (AAFB)
                              J006, GOJ Design, Apra Medical Clinic       APRA MEDICAL CLINIC        18-Feb-10       2,977,923     2,794,574              161          183,349
                                                                          (APR HARBOR)
                              J007, GOJ Design, Waterfront                WATERFRONT                 11-Jan-10       2,047,463     1,972,746           15,737           74,717
                              Headquarters Bldg.                          HEADQUARTERS
                                                                          BUILDING
                              J008, GOJ Design, Fire Station              FIRE STATION               11-Jan-10       1,808,420       926,776           11,049          881,644
                                                                          (FINEGAYAN)
                              J010, GOJ Design, BEQ Complex               BEQ COMPLEX                27-Feb-10       3,423,815     3,025,125           66,901          398,690
                              100; Construction; North Ramp Utilities     DPRI-NORTH RAMP            6-Apr-11       21,000,000     6,135,998        5,398,931       14,864,002
                                                                          UTILITIES, INC 1 (AAFB)
                              1003; Construction; Military Working Dog    MILITARY WORKING DOG       29-Sep-10      13,000,000     3,528,987        1,851,415        9,471,013
                                                                          RELOC, APRA HRBR


                          2
                              The table includes negative numbers which represent de-obligations.	
                                                                                                                                         Cost Incurred
                                                                                                            Total       Cost Incurred     January 1 -    Estimated
                                                                                                          Estimated     to Date (US or   December 31,     Costs to
                                           Project                     Description/Scope     Start Date     Cost         GOJ Funds)          2012        Complete
                           1006: Construction: Defense Access      DAR/DPRI-DEFENSE          13-Jul-11      7,825,000       268,447          244,042      7,556,553
                           Road Improvements (Agana)               ACCESS ROAD
                                                                   IMPROVEMENTS (AGANA)
                           101; Construction; North Ramp Parking   DPRI-NORTH RAMP           6-Apr-11      88,000,000    39,692,495       33,619,770     48,307,505
                                                                   PARKING, INC 1 (AAFB)
                           204; Construction, Apra Harbor Wharf    APRA HARBOR WHARF         30-Sep-10    125,000,000    68,857,263       45,672,209     56,142,737
                           Improvement                             IMPRV, INC 1 OF 2
                           204A: DPRI APRA Harbor                  DPRI APRA HARBOR          27-Nov-11     39,104,634              -               -     39,104,634
                           Wharf Improvement 2                     WHARF
                                                                   IMPROVEMENT 2
                           010; Design, PDM IV MARINE CORPS        PDM IV MARINE CORPS       15-Apr-08      2,236,412     2,236,412               17                 -
                           MILCON                                  MILCON
                           100; Design, DPRI-NORTH RAMP            DPRI-NORTH RAMP           3-Dec-09       1,221,700     1,221,700              657                 -
                           UTILITIES, INC 1 (AAFB)                 UTILITIES, INC 1 (AAFB)
                           1003; Design, DPRI-MILITARY             DPRI-MILITARY WORKING     25-Oct-08      1,539,323     1,539,323              107                 -




      15
                           WORKING DOG RELOC, APRA HRBR            DOG RELOC, APRA HRBR
                           100A; Design, North Ramp Utilities      DPRI-NORTH RAMP           15-Feb-11       743,820        743,820           17,708                 -
                                                                   UTILITIES INC 2 OF 2
                           101; Design, DPRI-NORTH RAMP            DPRI-NORTH RAMP           3-Dec-09       2,196,718     2,189,369            2,741          7,349
                           PARKING, INC 1 (AAFB)                   PARKING, INC 1 (AAFB)
                           101A:Design, DPRI-North Ramp Parking    DPRI-NORTH RAMP                           540,181        471,602          471,602         68,579
                           Inc 202                                 PARKING, INC 2 OF  2
                           109; Design, DPRI-AIRCRAFT              DPRI-AIRCRAFT             14-Mar-09       240,088        240,088               48                 -
                           MAINTENANCE HANGAR (NORTH               MAINTENANCE HANGAR
                           RAMP)                                   (NORTH RAMP)
                           110; Design, DPRI-SITE PREP AND         DPRI-SITE PREP AND        30-Sep-09      6,266,949     6,266,949               30                 -
                           UTILITIES, PHASE 1 (FINEGAYAN)          UTILITIES, PHASE 1
                                                                   (FINEGAYAN)
                           111; Design, DPRI-APRA HARBOR           DPRI-APRA HARBOR          25-Nov-09      1,251,286     1,251,286                -                 -
                           VICTOR WHARF IMPR                       VICTOR WHARF IMPR
                           113; Design, DPRI-FINEGAYAN SITE        DPRI-FINEGAYAN SITE       13-Feb-10       491,128        491,128                -                 -
                           PREP AND UTILITIES - PHASE 2            PREP AND UTILITIES -
                                                                   PHASE 2
                           2006; Design, DPRI- Apra Harbor Embark DPRI-APRA HARBOR           30-Jan-10       509,003        509,003                -                 -
                           Facilities (Agana)                     EMBARK FACILTIES
                                                                  (AGANA)
                                                                                                                                                                         Section 2: Project and Program Costs
                                                                                                                                                                                       (Section 2835(e)(1)(B))




        February 1, 2013
Guam Realignment Report
                           	      Section 2835(e)(1)(B)
                          	      Section 2835(e)(1)(B)

                                                                                                                                        Cost Incurred
                                                                                                            Total      Cost Incurred     January 1 -    Estimated
                                                                                                          Estimated    to Date (US or   December 31,     Costs to
                                          Project                    Description/Scope       Start Date     Cost        GOJ Funds)          2012        Complete
                          2014;Base Communications Center         DPRI-BASE                  9-Nov-10       288,633        288,633                -                 -
                                                                  COMMUNICATIONS




February 1, 2013
                                                                  CENTER
                          204; Design, DPRI-APRA HARBOR           DPRI-APRA HARBOR           14-Feb-09     6,395,661     6,395,661              592                 -
                          WHARF IMPRV, INC 1 OF 2                 WHARF IMPRV, INC 1 OF 2
                                                                                                                                                                        (Section 2835(e)(1)(B))




                          2048; Design, DPRI-Finegayan Water      DPRI-FINEGAYAN WATER       28-Jan-11      677,392        677,392            6,329                 -




Guam Realignment Report
                          Utilities                               UTILITIES
                          205; Design, DPRI-Defense Access Road   DPRI-DEFENSE ACCESS        27-Jun-11       10,272         10,272              181                 -
                          Improvements (Agana)                    ROAD IMPROVEMENTS
                                                                  (AGANA)
                                                                                                                                                                        Section 2: Project and Program Costs




                          598; Design, DPRI-Training Land         DPRI-TRAINING LAND         28-Mar-11       79,698         79,698                -                 -
                          Acquisition (Rt 15 Andy South)          ACQUISITION (RT 15)
                                                                  (ANDY SOUTH)
                          599; Design, DPRI-COMBAT LOGISTIC       DPRI-COMBAT LOGISTIC       19-Dec-09      408,852        408,852              528                 -
                          COMPANY FACILITIES (FINEGAYAN           COMPANY FACILITIES
                                                                  (FINEGAYAN
                          600; Design, DPRI DAR Road              DPRI-DAR ROAD              27-Jun-11         6,487          6,487             140                 -
                          Realignment Rt 15                       REALIGNMENT, ROUTE 15




      16
                          601; Design, DPRI-AVIATION              DPRI-AVIATION FACILITIES   19-Dec-09      272,296        272,296              775                 -
                          FACILITIES AT NORTH RAMP                AT NORTH RAMP
                          602; Design, DPRI-III MARINE            DPRI-III MARINE            13-Feb-10      466,909        466,909              971                 -
                          EXPEDITIONARY FORCE HQ                  EXPEDITIONARY FORCE
                          (FINEGAYAN)                             HQ (FINEGAYAN)
                          603; Design, DPRI-FINEGAYAN SITE        DPRI-FINEGAYAN SITE        30-Jan-10      104,840        104,840                -                 -
                          PREP AND UTILITIES - PH 3               PREP AND UTILITIES - PH
                                                                  3
                          604; Design, DPRI-OPERATIONS AND        DPRI-OPERATIONS AND        13-Feb-10      552,138        552,138              976                 -
                          ARMORY FACILITIES (FINEGAYAN)           ARMORY FACILITIES
                                                                  (FINEGAYAN)
                          606; Design, DPRI-CORROSION             DPRI-CORROSION             19-Dec-09      405,172        405,172              977                 -
                          CONTROL FACILITY (FINEGAYAN)            CONTROL FACILITY
                                                                  (FINEGAYAN)
                          700; Design, DPRI-INDOOR                DPRI-INDOOR                27-Oct-10       79,599         79,599              731                 -
                          MULTIPURPOSE RANGE                      MULTIPURPOSE RANGE
                          705;Design, DPRI-GAS CHAMBER            DPRI-GAS CHAMBER           27-Oct-10       34,287         34,287               36                 -
                          710;Design, DPRI-ENGINEERING PIT        DPRI-ENGINEERING PIT       27-Oct-10       55,918         55,918              735                 -
                                                                                                                                             Cost Incurred
                                                                                                                Total       Cost Incurred     January 1 -     Estimated
                                                                                                              Estimated     to Date (US or   December 31,      Costs to
                                           Project                     Description/Scope       Start Date       Cost         GOJ Funds)          2012         Complete
                           J001X; Design, UTILITIES AND SITE       UTILITIES AND SITE          14-Feb-09        8,543,940      8,543,940                -                 -
                           IMPROVEMENTS - PH 1                     IMPROVEMENTS - PH 1
                           J006X Design, Apra Medical Clinic       APRA MEDICAL CLINIC          11-Apr-09        940,473        940,473                 -                 -
                                                                   (APR HARBOR)
                           J007X Design, Waterfront Headquarters   WATERFRONT                   11-Apr-09        899,842        899,842                 -                 -
                           Bldg                                    HEADQUARTERS
                                                                   BUILDING
                           J008X Design, Fire Station              FIRE STATION                 25-Apr-09        865,658        865,658                 -                 -
                                                                   (FINEGAYAN)
                           J011; Design, BASE ADMINISTRATIVE       BASE ADMINISTRATIVE          10-Apr-10        903,876        903,876                 -                 -
                           BUILDING (FINEGAYAN)                    BUILDING (FINEGAYAN)
                           J012; Design, MARINE LOGISTICS          MARINE LOGISTICS             10-Apr-10        918,439        918,439                 -                 -
                           GROUP (MLG) HQ BUILDING                 GROUP (MLG) HQ
                                                                   BUILDING
                           J015; Design, ENLISTED DINING           ENLISTED DINING              10-Apr-10        863,297        863,297                 -                 -




     17
                           FACILITY                                FACILITY
                           J016; Design, BACHELORS ENLISTED        BACHELORS ENLISTED           10-Apr-10        748,298        748,298                 -                 -
                           QUARTERS COMPLEX                        QUARTERS COMPLEX
                           J017; Design, UTILITIES AND SITE        UTILITIES AND SITE           4-Jul-09        6,496,001      6,416,763           3,220           79,238
                           IMPROVEMENTS - PH 2                     IMPROVEMENTS - PH 2
                               Subtotal                                                                      $548,441,840   $213,848,437     $111,837,911    $334,593,402
                                                                                              Marine Corps
                           D-0013                                  Update to FHWA Guam         18-Jun-10          56,587        $56,587                 -                 -
                                                                   Build-up Traffic Study
                           D-0014                                  Bldg 207/228/155            16-Sep-10        4,377,718      4,208,996         366,842         168,722
                                                                   Renovation Project
                           D-0016                                  Comprehensive Base Dev      18-Jun-10        1,173,558      1,158,280         343,209          15,277
                                                                   Study, Andersen AFB
                           E-0004                                  Draft EIS                   12-Jun-09        3,501,435      3,501,062                -            374
                           E-0005                                  Final EIS Support           17-Mar-10        1,932,139      1,932,138                -              1
                           E-0008                                  On-Base Traffic Analysis    20-Aug-09         275,262        275,262                 -                 -
                           E-0009                                  Water Study                 28-May-09          13,081         13,081                 -                 -
                           E-0011                                  Electrical Study             23-Jul-09         40,713         40,713                 -                 -
                           E-0012                                  Solid Waste Management      17-Mar-10          20,000         20,000                 -                 -
                                                                   Plan (IHS)
                                                                                                                                                                              Section 2: Project and Program Costs
                                                                                                                                                                                            (Section 2835(e)(1)(B))




        February 1, 2013
Guam Realignment Report
                           	        Section 2835(e)(1)(B)
                          	        Section 2835(e)(1)(B)

                                                                                                                                         Cost Incurred
                                                                                                          Total         Cost Incurred     January 1 -    Estimated
                                                                                                        Estimated       to Date (US or   December 31,     Costs to
                                         Project               Description/Scope           Start Date     Cost           GOJ Funds)          2012        Complete
                          E-0016                           Natural Resource Study          23-Jul-09      367,066           367,066                -                 -
                          E-0017                           Cultural/ Historical Resource   11-Jun-09       292,711          292,711                -                 -




February 1, 2013
                                                           Study
                          E-0025                           CNMI Natural Resource           10-Apr-09     7,011,986        5,251,489                -      1,760,497
                                                           Survey
                                                                                                                                                                         (Section 2835(e)(1)(B))




                          E-0031                           Administrative Record           6-Aug-09      1,130,775        1,129,815            2,690         50,782




Guam Realignment Report
                                                           Review
                          E-0033                           Sierra Wharf Dredge             23-Jul-09                -              -               -                 -
                                                           Material Permitting
                          E-0037                           Cultural Resources Study        13-May-10         4,959             4,959               -                 -
                                                                                                                                                                         Section 2: Project and Program Costs




                          E-0039                           Cultural Landscape Report,      13-May-10       19,965            19,965                -                 -
                                                           Tinian N. Field
                          E-0040                           Socioeconomic Study Guam        6-May-11       285,397           285,397                -                 -
                                                           Buildup
                          E-0041                           Finegayan                       13-May-10       10,375            10,375                -                 -
                          E-0044                           Utility Study, Water (Lost      13-May-10       13,288            13,288                -                 -
                                                           River)




      18
                          E-0045                           Bio Security Plan               17-Oct-11     2,617,957        2,368,968           15,684        248,989
                          E-0046                           Utility Study New Wells         28-Feb-09     1,918,151        1,912,181                -          5,970
                          E-0047                           Air Impact Study                28-May-09      175,706           175,706                -                 -
                          E-0048                           Apra Harbor Landfill            28-Feb-09       88,785            88,785                -                 -
                                                           Groundwater Study
                          E-0049                           Aquifer Sustainable Yield       28-Feb-09       22,948            22,948                -                 -
                          E-0050                           Cycling Demolition (C&D)        29-Dec-09      491,998           491,998                -                 -
                                                           Recycling Study
                          E-0051                           Archaeological Curation         24-Jul-09      315,466           308,181                -          7,285
                          E-0052                           Haul Roads                      28-Feb-09     3,780,121        3,696,610                -         83,511
                          E-0053                           Special Airspace Feasibility    24-Jul-09     1,010,921          749,318           50,165        261,603
                                                           Study
                          E-0054                           Bats and Snails                 23-Jul-09       70,227            70,227                -                 -
                          E-0056                           Mod Alt 2                       23-Jul-09      219,970           219,970                -                 -
                          E-0057                           Adaptive Management             23-Jul-09      223,338           223,338                -                 -
                          E-0060                           Tinian Training Ranges EIS      17-Aug-09      100,237           100,237                -                 -
                                                                                                                                       Cost Incurred
                                                                                                           Total      Cost Incurred     January 1 -    Estimated
                                                                                                         Estimated    to Date (US or   December 31,     Costs to
                                         Project                Description/Scope           Start Date     Cost        GOJ Funds)          2012        Complete
                           E-0061                           LEED Sustainability Study       17-Aug-09      744,989        744,989                -                 -
                           E-0063                           Drainage Low Impact             20-Aug-09      518,592        518,592                -                 -
                                                            Development
                           E-0064                           Paper Wasp Attractant Study     1-Sep-10        90,886         37,984           37,984         52,902
                           E-0066                           On-Base Utility Study           24-Sep-09       69,797         69,797                -                 -
                           E-0067                           Wetlands Delineation Study      29-Dec-09      188,822        180,855                -          7,967
                           E-0069                           Ground Water Study              22-Dec-11     1,297,750     1,020,036          263,288        277,714
                           E-0070                           Emissions Calculations          13-May-10       25,745         25,745                -                 -
                                                            MSAT
                           E-0071                           Northern District Waste         13-May-10         1,241          1,241               -                 -
                                                            Water Treatment Plant
                                                            (NDWTTP) Diffuser Study
                           E-0077                           Public Comment Assistance       18-Feb-10      365,921        365,921                -                 -
                                                            - Part I




      19
                           E-0079                           Sewer Interceptor               10-Apr-09      104,659        104,659                -                 -
                           E-0080                           DEIS Executive Summary          16-Dec-09         2,000          2,000               -                 -
                                                            Translation
                           E-0083                           EIS Tiger Team Additional       19-Feb-10      479,135        479,135                -                 -
                                                            Spt
                           E-0087                           Arch Mitigation                 20-Oct-11      888,139        119,410            1,853        768,730
                           E-0089                           WWTP Upgrade                    13-May-10         2,441          2,441               -                 -
                           E-0090                           Barrigada Water Utility Study   31-Mar-10        29,211         29,211               -                 -
                           E-0091                           Power Utility Study Update      21-May-09       39,484         38,863                -           621
                           E-0092                           Utility Tech Update Admin       17-Jun-11       52,106         52,106                -                 -
                                                            Record
                           E-0093                           Waste Water Utility Update      31-Mar-10       45,796         45,796                -                 -
                           E-0095                           Integrated Solid Waste          4-Feb-10       225,340        115,663           38,817        109,677
                                                            Management Plan (ISWMP)
                           E-0096                           Coastal Consistency             15-Jul-10       19,956         19,879                -            77
                                                            Determination
                           E-0098                           Revised Hardcopies of FEIS      20-Aug-10       22,188         22,188                -                 -
                           E-0099                           Guam Wellhead Protection        15-Sep-10       37,591         37,591                -                 -
                                                            Regulations
                                                                                                                                                                       Section 2: Project and Program Costs
                                                                                                                                                                                     (Section 2835(e)(1)(B))




        February 1, 2013
Guam Realignment Report
                           	        Section 2835(e)(1)(B)
                          	        Section 2835(e)(1)(B)

                                                                                                                                     Cost Incurred
                                                                                                         Total      Cost Incurred     January 1 -    Estimated
                                                                                                       Estimated    to Date (US or   December 31,     Costs to
                                         Project               Description/Scope          Start Date     Cost        GOJ Funds)          2012        Complete
                          E-0100                           Finegayan Landfill No 2 Site   16-Sep-10      471,137        469,872          346,417          1,265
                                                           Investigation




February 1, 2013
                          E-0101                           Follow-on NEPA Terrestrial     23-Dec-10      982,939        231,744           66,663        751,195
                                                           Mitigation
                          E-0102                           Cultural Resources             28-Oct-10      839,370        304,370           49,683        535,000
                                                                                                                                                                     (Section 2835(e)(1)(B))




                                                           Consultation and Mitigation




Guam Realignment Report
                          E-0103                           ROD Litigation                 17-Oct-11       86,595         86,595            2,900                 -
                          E-0104                           Follow-on NEPA Terrestrial     25-Oct-10      310,025        124,803            8,163        185,223
                                                           Mitigation
                          E-0105                           Pesticide Soil Impacted        25-Oct-10       62,222         62,222            2,849                 -
                                                                                                                                                                     Section 2: Project and Program Costs




                                                           Management Plan
                          E-0106                           Support SIR Preparation        20-May-11       71,472         71,472                 -                -
                          E-0109LA                         Naval Munitions Site Alts      23-Dec-11     1,890,116       237,442          237,442      1,652,774
                                                           SEIS
                          E-0109LB                         NEPA Scoping SEIS              23-Dec-11      633,572        524,898          624,898          8,674
                          E-0109LC                         Watershed Recon Studies        23-Dec-11      210,219        156,276          156,276         53,943
                                                           SEIS




      20
                          E-0109LD                         LFTRC SEIS                     23-Dec-11     1,243,550       625,143          625,143        618,407
                          E-0109LQ                         SEIS                           23-Dec-11        9,717           9,717           9,717                 -
                          E-0109VE                         Training Range Alts SEIS       23-Dec-11     2,109,946       707,646          707,646      1,402,300
                          E-112LA                          Candidate Species Survey       16-Jul-12      369,694               -               -        369,694
                          E-112LB                          Socioeconomic Study - SEIS     16-Jul-12      781,880         51,277           51,277        730,603
                          E-112LC                          NOI Scoping, Draft, & Final    13-Jul-12     7,392,888       268,907          268,907      7,123,461
                                                           SEIS
                          E-112LD                          Additional Studies             23-Aug-12      678,547         27,521           27,521        651,026
                          E-112VE                          Phase II Planning              13-Jul-12     4,138,715        84,817           84,817      4,053,898
                          H-0001                           Guam Housing Special           20-Aug-09      393,191        393,191                -                 -
                                                           Purpose Entity (PPV)
                          J-0023                           BOQ 1391s                      6-Apr-10       295,614        295,614                -                 -
                          J-0025                           Finegayan Med/Dental Clinic    6-Apr-10       259,539        259,539                -                 -
                                                           1391s
                          J-002X                           Admin Facilities 1391s         6-Apr-10       683,408        680,911                -          2,497
                          N-0038                           Acoustic Monitoring            25-Oct-10          425            425                -                 -
                                                                                                                                     Cost Incurred
                                                                                                         Total      Cost Incurred     January 1 -    Estimated
                                                                                                       Estimated    to Date (US or   December 31,     Costs to
                                         Project                Description/Scope         Start Date     Cost        GOJ Funds)          2012        Complete
                           P-0001                           Master Plan, Phase II (IHS)   17-Mar-10      410,000        410,000                 -                -
                           P-001B                           Master Plan Phase III         5-Aug-11      4,647,914      1,465,611         465,030      3,182,303
                           P-0004                           Project Documentation         30-Sep-09     4,000,000        36,324                 -     3,963,676
                           P-0012                           Develop 1391s and DPRI        24-Jul-09      932,998        507,194            1,289        425,803
                                                            Project Support
                           P-0015                           Master Plan Phase II          3-Sep-09        776,117       776,090                 -           27
                           P-0030                           Tinian MP Phase II            23-Jul-09     1,093,791       996,636          (48,494)        97,155
                           P-0044                           SPE Consultant                6-Feb-09       198,020        198,020                 -                -
                           P-0046                           SPE Construct                 7-Jan-09      5,591,774     5,591,620        1,325,752           154
                           P-0050                           Historical Ordnance            1-Jul-09      108,447        108,447                 -                -
                           P-0054                           Barrigada Study               4-May-09       388,367        388,367                 -                -
                           P-0055                           Master Plan Alts 1,3,8        23-Aug-11       99,817         99,817                 -                -
                           P-0057                           Traffic Study                 24-Jul-09      163,698        163,698                 -                -




      21
                           P-0059                           Combustion Turbine Study      19-Feb-10      421,643        292,255                 -       129,388
                           P-0060                           Explosive Safety              8-Apr-11       846,183        306,351           71,262        539,832
                           P-0062                           ATFP Blast Analysis           6-Apr-10       106,937        106,937                 -                -
                           P-0063                           Tinian Pagan Topographic      25-Mar-10      288,549        288,549                 -                -
                                                            Contour Data
                           P-0064                           Guam Community Integrated     20-Aug-10      569,204        569,204           30,736                 -
                                                            Master Plan
                           P-0065                           Facility Management           11-Mar-11       83,771         83,771                 -                -
                                                            Sustainment (FMS) Work
                                                            Plan
                           P-0066                           Utility Energy Management     11-Mar-11       51,801         51,801                 -                -
                                                            (UEM) Work Plan
                           P-0075                           Alternative Laydown Plans     5-Aug-11      2,765,240       242,953          203,432      2,522,287
                           R-0001                           Appraisal Guam (less          3-Sep-09       967,452        864,949                 -       102,503
                                                            Harmon)
                           R-0003                           Boundary Survey (FAA          24-Jul-09      210,199        204,360                 -         5,839
                                                            Parcel)
                           R-0005                           Title Evidence (HIS)          18-Mar-10       14,607         14,300                 -          307
                           R-0007                           Environmental Baseline        7-May-09       919,448        547,382                 -       372,066
                                                            Study
                                                                                                                                                                     Section 2: Project and Program Costs
                                                                                                                                                                                   (Section 2835(e)(1)(B))




        February 1, 2013
Guam Realignment Report
                           	        Section 2835(e)(1)(B)
                          	         Section 2835(e)(1)(B)

                                                                                                                                        Cost Incurred
                                                                                                           Total       Cost Incurred     January 1 -    Estimated
                                                                                                         Estimated     to Date (US or   December 31,     Costs to
                                          Project               Description/Scope          Start Date      Cost         GOJ Funds)          2012        Complete
                              R-0008                        Environmental Site             25-Oct-10          11,082        10,956                 -           125
                                                            Assessment - Route 15




February 1, 2013
                              R-0009                        Relocation Assistance Plan     13-Nov-09        126,448         50,757                 -        75,691
                              R-0011                        Finding of Suitability, Guam   17-Mar-10        533,141           8,141                -       525,000
                                                                                                                                                                        (Section 2835(e)(1)(B))




                              R-0013                        Environmental Baseline SPE     22-Mar-10        461,756        460,758          148,012            998




Guam Realignment Report
                              S-0004                        NAVFAC HQ Labor Support        24-Mar-09       2,331,073     2,165,322           11,931        165,750
                              S-0005                        NAVFACPAC Yearly Labor         24-Feb-09      16,854,319    13,337,791        2,656,228       3,516,528
                                                            Support
                              S-0006                        NAVFACMAR Yearly Labor         26-Jan-10       5,565,611     3,703,763           41,219       1,861,848
                                                                                                                                                                        Section 2: Project and Program Costs




                                                            Support
                              S-0010                        Program Support Contract       10-Sep-09       3,039,982     2,629,212                 -       410,770
                              S-0012                        PIB IPR Facilitation           26-Feb-10        156,600        156,600                 -                -
                              S-0014                        GPMO NAVFACPAC                 7-Mar-11        2,279,738       256,388           68,838       2,023,350
                                                            SPAWAR C4ISR/IT Liaison
                              S-0015                        Guam Program Support           29-Sep-11       8,778,571     3,212,677          863,498       5,565,894
                              S-0016                        NAVFACPAC JV                   28-Sep-10       1,283,479     1,283,479                 -                -




      22
                                                            Management Support
                              U-0001                        Northern District Waste        23-Jul-09        296,426        296,426                 -                -
                                                            Water Treatment Plant
                                                            (NDWWTP)
                              U-0002                        Increase Pump Rate, Marbo      25-Sep-10       1,228,387     1,163,012          795,202         65,375
                                                            Wells 5-9
                              U-0003                        Tumon Maui Well                16-Sep-10        390,883        380,400              440         10,483
                                                            Rehabilitation
                              U-0004                        Combustion Turbines (CTs)      11-Mar-11       1,068,887        24,887                 -      1,044,000
                                                            Permit Air Monitoring
                              U-0005                        Tumon Maui Well Rehab          26-Sep-11       4,699,775     1,353,769        1,322,615       3,346,006
                              N/A                           Guam Road Projects –           17-Aug-09       1,595,940     1,261,445          (51,774)       334,495
                                                            Defense Access Roads
                                                            (DAR) Program (FHWA)
                               Subtotal                                                                 $137,086,964   $84,888,574      $12,346,341     $52,198,390
                                                                                                                                                        Cost Incurred
                                                                                                                        Total        Cost Incurred       January 1 -       Estimated
                                                                                                                      Estimated      to Date (US or     December 31,        Costs to
                                               Project                  Description/Scope            Start Date         Cost          GOJ Funds)            2012           Complete
                                                                                                       Army
                               Archeological Survey                 Survey All Potential AAMDC       26-Jan-10           165,000         159,419             (1,474)                    -
                                                                    Unit Sites proposed in EIS
                               Environmental Impact Statement       EIS Processing Fee               27-Jan-10            27,000          27,000                   -                    -
                                Subtotal                                                                                $192,000        $186,419            $(1,474)                    -
                                Total                                                                                $685,720,804    $298,923,430       $124,182,778      $386,791,792

                           Sources: Department of Navy’s response to DoD OIG data call, 1/11/2013. Army’s response to DoDIG data call, 1/14/2013.



                           OTHER FEDERAL AGENCY PROJECT AND PROGRAM LIST
                           In CY 2012, the DOT identified funds directly associated with the realignment of military installations and military personnel to Guam.
                           Specifically, the agency reported a total of 26 projects that were directly associated with the realignment. The DOT projects incurred costs
                           of approximately $8.7 million with an estimated completion cost of approximately $26.9 million. Table 7 identifies the DOT projects and
                           associated costs for CY 2012.




      23
                                                                   Table 7. Costs for Other Federal Agency Projects and Programs
                                                                                                                                                          Cost Incurred
                                                                                                                           Total       Cost Incurred       January 1 -       Estimated
                                                                                                                         Estimated     to Date (US or     December 31,        Costs to
                                  Agency                 Project           Description/Scope            Start Date         Cost         GOJ Funds)            2012           Complete
                               DOT              MARAD-DTMA1D10002      Structural Review - Berths       1-Aug-12          $106,388        $89,622            $89,622          $16,766
                                                (Mod 8)                4, 5 & 6 (August 1, 2011
                                                                       through September 05,
                                                                       2011)
                               DOT              MARAD-DTMA1D10002      Project Management               11-Dec-11           93,352         93,352             93,352                -
                                                (Mod 11)               (December 11, '11 -
                                                                       February 18, '12)
                               DOT              MARAD-DTMA1D10002      To develop a geotechnical                           245,668        219,061            219,061           26,607
                                                (Task Order 1)         & seismic evaluation of
                                                                       the wharf and finalize the
                                                                       Implementation Plan by
                                                                       March 2012.
                               DOT              MARAD-DTMA1D10002      To develop a geotechnical        7-Feb-12            82,914         82,914             82,914                -
                                                (Task Order 1)         evaluation of the wharf and
                                                                       finalize the Implementation
                                                                       Plan by March 2012.
                                                                                                                                                                                            Section 2: Project and Program Costs
                                                                                                                                                                                                          (Section 2835(e)(1)(B))




        February 1, 2013
Guam Realignment Report
                           	         Section 2835(e)(1)(B)
                          	     Section 2835(e)(1)(B)

                                                                                                                                        Cost Incurred
                                                                                                             Total     Cost Incurred     January 1 -    Estimated
                                                                                                           Estimated   to Date (US or   December 31,     Costs to
                              Agency           Project             Description/Scope          Start Date     Cost       GOJ Funds)          2012        Complete
                          DOT          MARAD-DTMA1D10002       To develop a seismic           29-Feb-12      162,754     136,147          136,147        26,607
                                       (Task Order 1, Mod 1)   evaluation of the wharf and




February 1, 2013
                                                               finalize the Implementation
                                                               Plan by March 2012.
                          DOT          MARAD-DTMA1D10002       To develop lighting plan for   2-Nov-11       160,370     156,007          156,007         4,363
                                                                                                                                                                    (Section 2835(e)(1)(B))




                                       (Task Order 2)          the port to hire a container
                                                               yard lighting contractor




Guam Realignment Report
                          DOT          MARAD-DTMA1D10002       To amend the lighting plan     17-Nov-12       25,874            -                -       25,874
                                       (Task Order 2, Mod 1)   per additional lights based
                                                               on available FEMA funds.
                          DOT          MARAD-DTMA1D10002       Completion of the              1-Jan-12       170,811     159,627          159,627        11,184
                                                                                                                                                                    Section 2: Project and Program Costs




                                       (Task Order 3)          Environmental Assessment.
                          DOT          MARAD-DTMA1D10002       Completion of the              1-Jan-12       170,811     159,627          159,627        11,184
                                       (Task Order 3)          Environmental Assessment.
                          DOT          MARAD-DTMA1D10002       Project Management             19-Feb-12       41,195      41,195           41,195             -
                                       (Mod 13)                (February 19, '12 - March
                                                               31, '12)
                          DOT          MARAD-DTMA1D10002       Project Management (April      1-Apr-12        48,655      48,655           48,655             -




      24
                                       (Mod 14)                1-30, '12)
                          DOT          MARAD-DTMA1D10002       Project Management (May        1-May-12       158,401     155,589          155,589         2,812
                                       (Mod 15)                1, '12 - July 31, '12)
                          DOT          MARAD-DTMA1D10002       Designing three bays of        26-Jun-12      168,092      96,258           96,258        71,834
                                       (Task Order 4)          the existing CFS building
                                                               to include new office space
                                                               components.
                          DOT          MARAD-                  Maritime Administration                       242,112     229,113           78,392        13,000
                                       1BPC11000004/11         Engineering Support
                          DOT          FHWA - Government of    Prepare NEPA Document          1-Oct-08     5,372,550   5,036,366          (19,975)      336,184
                                       Guam Contract           and Coordination between
                                       Islandwide Program      Government of Guam DPW,
                                       Management Services     FHWA, and DOD
                                       GU-NH-IPMS(002)
                                       DTFH6109X50001
                                                                                                                                                Cost Incurred
                                                                                                                     Total     Cost Incurred     January 1 -     Estimated
                                                                                                                   Estimated   to Date (US or   December 31,      Costs to
                               Agency            Project                 Description/Scope            Start Date     Cost       GOJ Funds)          2012         Complete
                           DOT          MARAD-DTMA1D10002            Support overall GCPI             7-Aug-12       473,904     201,020          201,020        272,884
                                        (Task Order 5)               program environmental
                                                                     service as well as TO
                                                                     005-specific environmental
                                                                     testing and providing the
                                                                     following design services in
                                                                     the PAG Break Bulk (BB)
                                                                     Yard: demolition of selected
                                                                     structures, replacement
                                                                     of associated lost lighting
                                                                     and pavement repairs, and
                                                                     implementation of four oil
                                                                     water separators.
                           DOT          FHWA - Government of         Prepare Design/Build             1-Feb-10     2,949,137   2,306,076          940,786        643,061
                                        Guam Contract                request for Qualifications for
                                        Islandwide Program           Proposals for FY2010 DAR
                                        Management Services          projects, Route 1




      25
                                        GU-NH-IPMS(002)
                                        27XX66IPMS00273P0
                           DOT          FHWA - Government of         Quality Assurance Testing        16-Nov-11      299,485       6,547            6,547        292,938
                                        Guam Contract                for Route 1 Agana Bridge,
                                        Technical Support            Route 1/8, Route 11, and
                                        Services Islandwide          Route 1/11
                                        Quality Assurance Testing
                                        GU-NH-TSIS(002)
                           DOT          FHWA - Government of         Consultant for Route 1/3         8-Jun-11       570,740      59,262                -        511,478
                                        Guam Contract                Intersection
                                        Route 1 and 3 Intersection
                                        Improvements
                                        GU-NH-0001(125)
                                        27XX66000112573P0
                           DOT          FHWA - Government of         Consultant for Route 3 from      26-May-11    2,182,765     125,665          125,665       2,057,100
                                        Guam Contract                Route 28 to Chalan Kareta
                                        Route 3 from Route 28 to
                                        Chalan Kareta
                                        GU-NH-0003(105)
                                        27XX66000310573V0
                                                                                                                                                                             Section 2: Project and Program Costs
                                                                                                                                                                                           (Section 2835(e)(1)(B))




        February 1, 2013
Guam Realignment Report
                           	     Section 2835(e)(1)(B)
                          	     Section 2835(e)(1)(B)

                                                                                                                                              Cost Incurred
                                                                                                                  Total      Cost Incurred     January 1 -      Estimated
                                                                                                                Estimated    to Date (US or   December 31,       Costs to
                              Agency             Project                Description/Scope          Start Date     Cost        GOJ Funds)          2012          Complete
                          DOT           FHWA - Government of        Construction of Route 1        28-Sep-11    11,489,814    3,511,304       3,511,304       7,978,510
                                        Guam Contract               Agana Bridge and Route 1/8




February 1, 2013
                                        Route 1 Agana Bridge and    Intersection
                                        Route 1/8 Intersection
                                        GU-DAR-TI01(001)
                                                                                                                                                                            (Section 2835(e)(1)(B))




                                        27XX66TI0173V0
                          DOT           FHWA - Government of        Construction of Route 11       4-Oct-11     14,016,299   2,204,035        2,204,035       11,812,264




Guam Realignment Report
                                        Guam Contract               and Route 1/11 Intersection
                                        Route 11 (Route 1 to
                                        Route 11) and Route 1/11
                                        Intersection
                                        GU-DAR-0011(008)
                                                                                                                                                                            Section 2: Project and Program Costs




                                        27XX66001100873V0
                          DOT           FHWA - Government of        Construction Management        28-Sep-11     2,117,165            -               -        2,117,165
                                        Guam Contract               for Route 1 Agana Bridge,
                                        Islandwide Professional     Route 1/8, Route 11, Route
                                        Construction Management     1/11
                                        Services
                                        GU-NH-PCMS(001)
                                        27XX66PCMS00173V0




      26
                          DOT           FHWA - Government of        Archaeological Support         22-Mar-11      185,000       48,558           48,558         136,442
                                        Guam Contract               for Route 1 Agana Bridge,
                                        Professional Services for   Route 1/8, and Route 1/11
                                        Archaeological Support
                                        GU-NH-PSAS(001)
                          DOT           FHWA - Government of        Geotechnical Engineering       23-Aug-10       33,120       33,120           33,120                -
                                        Guam Contract               for Route 1 Agana Bridge
                                        Technical Support           and Route 1/8
                                        Services Islandwide
                                        GeoTechnical Engineering
                                        GU-NH-TSIS(001)
                          DOT           DTMA1D10002 (Task           Project Management              7-Jul-12      272,920      245,212          245,212          27,707
                                        Order 7)                    (August 1, '12 - October 31,
                                                                    '12)
                          DOT           DTMA1D10002 (Task           Project Management             2-Nov-12       534,091             -               -         534,091
                                        Order 8)                    (August 1, '12 - October 31,
                                                                    '12)

                          Source: DOT’s response to DoD OIG data call, 1/10/2013.
     Section 2: Project and Program Costs
                   (Section 2835(e)(1)(B))




                                             Section 2835(e)(1)(B)
                                             	




                Guam Realignment Report
27
                        February 1, 2013
  U.S. Naval Hospital Ship Mercy at sea.




Guam Realignment Report
                                           28
February 1, 2013
                                       3
Government of Japan Revenue




                                          Section 2835 (e)(1)(C)
                                      	


                                                   	




                      Guam Realignment Report
              29
                              February 1, 2013
                         Section 3: Government of Japan Revenue
                         (Section 2835(e)(1)(C))

                         Section 2350k, title 10 of the U.S. Code, grants the Secretary of Defense authority to accept cash
                         contributions from any nation in support of a relocation of the armed forces. According to agreements
                         between the U.S. and the GOJ, the GOJ is expected to provide up to $2.80 billion (FY 2008 U.S. dollars)
                         for the Marine Corps relocation from Okinawa to Guam. Public Law 111-84 requires the ICG annual
                         report to contain a detailed statement on the revenues contributed by the GOJ and any obligations or
                         expenditures of these revenues.

                         GOJ FUNDING FOR REALIGNMENT
                         In CY 2012, the Defense Finance and Accounting Service reported that the GOJ provided no revenues,
                         earned approximately $2.2 million in interest associated with revenues contributed to date, obligated
                         approximately $6.6 million, and expended approximately $38 million. Table 8 shows the revenues,
                         interest, obligations, and expenditures for each project.31

                                       Table 8. GOJ Revenues/Interest/Obligations/Expenditures for Calendar Year 2012
                                                                          Revenue             Earnings on
                                               Project                  (Contribution)        Investment    Obligations   Expenditures
                             Interest Earned Japanese FY 09 Funds             $-               $774,394            $-             $-
                             Interest Earned Japanese FY 10 Funds               -              1,386,424             -              -
                             Japanese FY 09 Design Fire Station                 -                     -        11,049          11,049
                             Japanese FY 09 Design Waterfront
                                                                                -                     -       (69,971)        15,737
                             Headquarters
                             Japanese FY 09 Design Apra Medical                 -                     -        (1,465)           161
                             Japanese FY 09 Design Bachelor Enlisted
                                                                                -                     -      (165,335)        114,842
                             Quarters Complex
                             Japanese FY 09 Construction Andersen Air
                                                                                -                     -     3,368,897       7,844,552
                             Force Base
                             Japanese FY 09 Construction Apra                   -                     -     3,452,159      29,994,201
                               Total                                          $-              $2,160,818    $6,595,334    $37,980,542
                             Source: Defense Finance and Accounting Services’ response to DoD OIG data call, 1/9/2013.
Section 2835(e)(1)(C)
	




                         3
                             The table contains negative numbers which represent de-obligations.

                        Guam Realignment Report
                                                                                         30
                        February 1, 2013
     Section 3: Government of Japan Revenue
                      (Section 2835(e)(1)(C))




                                                Section 2835(e)(1)(C)
                                                	




                   Guam Realignment Report
31
                           February 1, 2013
  A U.S. Air Force F-16D Fighting Falcon aircraft departs the runway at
  Andersen AFB, Guam.




Guam Realignment Report
                                                      32
February 1, 2013
                                      4
Operating Expenses




                                        	 Section 2835(e)(1)(D)




                     Guam Realignment Report
              33
                             February 1, 2013
                         Section 4: Operating Expenses
                         (Section 2835(e)(1)(D))

                         Public Law 111-84 requires the ICG annual report to contain a detailed statement on the operating
                         expenses of agencies or entities receiving amounts appropriated or otherwise made available for military
                         construction on Guam. The DoD Financial Management Regulation states that operating expenses include
                         costs for personnel, travel, communications, contractual services, and other program expenses.

                         DEPARTMENT OF THE NAVY OPERATING EXPENSES
                         For CY 2012, the Department of the Navy (DON) reported operating expenses of $24.9 million. Table 9
                         lists the operating expenses for DON support organizations associated with the military realignment on
                         Guam.

                              Table 9. Department of the Navy Operating Expenses Related to the Guam Realignment
                                                      (January 1, 2012 – December 31, 2012)
                                                                                                                  Operating
                                              Organization                    Description of Expenses Incurred    Expenses
                                JGPO                                       Salaries                               $1,245,000
                                JGPO                                       Travel                                   169,000
                                JGPO                                       Intragovernmental Purchases              793,000
                                JGPO                                       Other Contracts                          149,000
                                JGPO                                       Commercial Transportation                 25,000
                                JGPO                                       Supplies/Purchase Card                    24,000
                                Marine Corps Pacific Division              Salaries                                1,049,594
                                Marine Corps Pacific Division              Travel                                   261,429
                                Marine Corps Pacific Division              Supplies                                    2,177
                                Marine Corps Pacific Division              Contract                                  50,000
                                Marine Corps Installation and Logistics    Travel                                    78,431
                                Marine Corps Installation and Logistics    Contracts and Other Services             609,073
                                Marine Corps Installation and Logistics    Expensed Via NAVFAC                    12,125,110
                                Marine Corps Installation and Logistics    Expensed Via Other Agencies              221,232
                                Marine Corps Installations and Logistics   FHOPS Contracts and Other Services        89,213
                                Marine Corps Marine Forces Pacific         Salaries                                1,087,602
                                Marine Corps Marine Forces Pacific         Travel                                   200,108
                                Marine Corps Marine Forces Pacific         Supplies & Equipment                       11,386
                                Marine Corps Marine Forces Pacific         Contract & Other Services               6,638,798
                                Marine Corps Marine Forces Pacific         Transportation of Things                  41,303
                                 Total                                                                           $24,870,456

                               Source: Department of Navy’s responses to DoD OIG data call, 1/11/2013 and 1/16/2013.
Section 2835(e)(1)(D)
	




                        Guam Realignment Report
                                                                                      34
                        February 1, 2013
                                                                          Section 4: Operating Expenses
                                                                                 (Section 2835(e)(1)(D))

OPERATING EXPENSES FOR OTHER FEDERAL AGENCY
For CY 2012, DOT reported approximately $425 thousand in operating expenses associated with the
realignment of military installations and military personnel to Guam. Specifically, DOT identified
salary, travel and contract costs. Table 10 lists operating expenses for DOT associated with the military
realignment on Guam.

     Table 10. Other Federal Agency Operating Expenses Related to the Guam Realignment
                            (January 1, 2012 – December 31, 2012)
                                            Description of Expenses   Operating
                            Agency                 Incurred           Expenses
                    DOT                     Admin                      $116,805
                    DOT                     Travel                       36,733
                    DOT                     Salaries                    271,645
                    Total                                              $425,183
                   Source: DOT’s response to DoD OIG data call, 1/10/2013.




                                                                                                            Section 2835(e)(1)(D)
                                                                                                            	




                                                                              Guam Realignment Report
                                                35
                                                                                      February 1, 2013
  U.S. Air Force personnel perform ongoing construction at
  Andersen AFB, Guam.




Guam Realignment Report
                                                     36
February 1, 2013
                                              5
Contracts, Grants, Agreements, or Other
Funding Mechanisms Data




                                                	 Section 2835(e)(1)(E)




                             Guam Realignment Report
                  37
                                     February 1, 2013
                          	         Section 2835(e)(1)(E)
                          Public Law 111-84 requires the ICG annual report to contain a detailed statement on the awarded contracts, grants, agreements, or other funding
                          mechanisms that use amounts appropriated or otherwise made available for military construction on Guam.

                          DoD CONTRACTS/GRANTS/AGREEMENTS/OTHER FUNDING MECHANISMS
                          For CY 2012, NAVFAC Headquarters reported a total of 85 contracts totaling approximately $34.7 million that were used to support the military




February 1, 2013
                          realignment to Guam. Table 11 identifies NAVFAC Headquarters contracts, grants, agreements, or other funding mechanisms.41 A contract may
                          be listed multiple times due to a task order, delivery order, or modification increasing the value of the contract.




Guam Realignment Report
                                    Table 11. DoD Contracts, Grants, Agreements, or Other Funding Mechanisms Supporting the Guam Military Realignment

                                                                             Amount Obligated
                                         Contract, Grant,                       January 1-
                                          Agreement, or                       December 31,
                                          Other Funding                            2012                                       Method Used to                         Offers
                              Agency     Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description       Solicit Offers    Offers Solicited   Received
                                                                                                                                                                               Mechanisms Data (Section 2835(e)(1)(E))




                              DON       FA524009D0005         $10,000,000       $119,505        TASK ORDER TO PROVIDE         ARCHITECT-   FULL AND OPEN              13
                                                                                                ALL WORK RELATED TO A         ENGINEER FAR COMPETITION
                                                                                                CHARRETTE FOR THE FY13        6.102        AFTER
                                                                                                PROJECT 101A, NORTH RAMP                   EXCLUSION OF
                                                                                                PARKING, AAFB.                             SOURCES




      38
                                                                                                                                                                               Section 5: Contracts, Grants, Agreements, or Other Funding




                              DON       FA524009D0005          10,000,000        350,676        MODIFICATION IS TO EXERCISE   ARCHITECT-   FULL AND OPEN              13
                                                                                                OPTION I (CHARRETTE-RFP)      ENGINEER FAR COMPETITION
                                                                                                ISSUED UNDER FA5240-          6.103        AFTER
                                                                                                09-D-0005 TASK ORDER 0004.                 EXCLUSION OF
                                                                                                                                           SOURCES
                              DON       N4019210C3000       Not applicable         (568)        MODIFICATION TO DEOBLIGATE NEGOTIATED           FULL AND OPEN          7
                                                                                                FUNDING FOR NAVFACPAC         PROPOSAL/         COMPETITION
                                                                                                (NBGTS LANDFILL #1) FOR THE QUOTE
                                                                                                FIRST AWARD OPTION PERIOD
                                                                                                (01 JAN 2010 TO 31 DEC 2010).




                          4
                              The table contains negative numbers which represent de-obligations.	
                                                                             Amount Obligated
                                         Contract, Grant,                       January 1-
                                          Agreement, or                       December 31,
                                          Other Funding                            2012                                      Method Used to                         Offers
                               Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description      Solicit Offers    Offers Solicited   Received
                               DON      N4019209D2707         400,000,000        (21,471)       MODIFICATION TO RECOVER      SUBJECT TO        FULL AND OPEN          4
                                                                                                THE UNUSED NOT-TO-           MULTIPLE          COMPETITION
                                                                                                EXCEED OBLIGATED AMOUNT      AWARD FAIR        AFTER
                                                                                                BUDGETED FOR FURNITURE,      OPPORTUNITY       EXCLUSION OF
                                                                                                FIXTURES AND EQUIPMENT                         SOURCES
                                                                                                (FFE) FOR TASK ORDER 0020
                                                                                                FOR THE RENOVATION OF
                                                                                                MARFORFAC ADMIN BLDGS
                                                                                                155, 207 & 208, NCTS, GUAM
                               DON      N4019210C3000       Not applicable           752        MODIFICATION TO REMOVE/      NEGOTIATED        FULL AND OPEN          7
                                                                                                DISPOSE EXISTING             PROPOSAL/         COMPETITION
                                                                                                ABANDONED METAL UST          QUOTE
                                                                                                AND PROVIDE TESTING AND
                                                                                                SOIL SAMPLING AT MILITARY
                                                                                                WORKING DOG RELOCATION
                                                                                                PROJECT SITE, CORNER OF




      39
                                                                                                SHORELINE DRIVE.
                               DON      N4019210C3000       Not applicable         3,378        MODIFICATION TO PROVIDE      NEGOTIATED        FULL AND OPEN          7
                                                                                                FACILITIES MANAGEMENT        PROPOSAL/         COMPETITION
                                                                                                SERVICES TO PROVIDE DIG      QUOTE
                                                                                                PERMIT REQUEST FOR TUMON
                                                                                                MAUI WELL.
                               DON      N4019210C3000       Not applicable         (329)        MODIFICATION TO 1) REVISE  NEGOTIATED          FULL AND OPEN          7
                                                                                                THE SECOND AWARD OPTION    PROPOSAL/           COMPETITION
                                                                                                PERIOD TABLE ON PAGE 3     QUOTE
                                                                                                OF 15 OF P00081 AND 2) DE-
                                                                                                OBLIGATE 2ND AWARD OPTION
                                                                                                PERIOD UNEARNED AWARD
                                                                                                FEE FOR THE SECOND AND
                                                                                                THIRD EVALUATION PERIOD
                                                                                                OF 01 MAY 2011 THROUGH
                                                                                                31 AUGUST 2011 AND 01
                                                                                                SEPTEMBER 2011 THROUGH 31
                                                                                                DECEMBER 2011MAUI WELL.
                                                                                                                                                                              Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                                Mechanisms Data (Section 2835(e)(1)(E))




        February 1, 2013
Guam Realignment Report
                           	         Section 2835(e)(1)(E)
                          	         Section 2835(e)(1)(E)

                                                                            Amount Obligated
                                        Contract, Grant,                       January 1-
                                         Agreement, or                       December 31,
                                         Other Funding                            2012                                       Method Used to                         Offers
                              Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description       Solicit Offers    Offers Solicited   Received
                              DON      N4019210C3000       Not applicable           827        MODIFICATION TO PROVIDE       NEGOTIATED        FULL AND OPEN          7




February 1, 2013
                                                                                               FACILITIES MANAGEMENT         PROPOSAL/         COMPETITION
                                                                                               SERVICES TO PROVIDE DIG       QUOTE
                                                                                               PERMIT SERVICES FOR AREA
                                                                                               #8 NEAR OROTE SUBSTATION
                                                                                               LOCATED AT NAVAL BASE




Guam Realignment Report
                                                                                               GUAM
                              DON      N4019210D0006          50,000,000        225,080        TASK ORDER FOR MILITARY       SUBJECT TO        FULL AND OPEN          4
                                                                                               WORKING DOG, MUNITIONS        MULTIPLE          COMPETITION
                                                                                               AND EXPLOSIVES OF             AWARD FAIR        AFTER
                                                                                               CONCERN (MEC) CLEARANCE       OPPORTUNITY       EXCLUSION OF
                                                                                               FOR 20 MM THRU 60 MM                            SOURCES
                                                                                                                                                                              Mechanisms Data (Section 2835(e)(1)(E))




                                                                                               PROJECTILE, U.S. NAVAL BASE
                                                                                               GUAM
                              DON      N4019210D0004          50,000,000         66,462        MODIFICATION TO ADD           SUBJECT TO        FULL AND OPEN          4
                                                                                               PERFORMANCE OF DIGITAL        MULTIPLE          COMPETITION
                                                                                               GEOPHYSICAL SURVEY            AWARD FAIR        AFTER
                                                                                               (FOR 20 MM THRU 60 MM         OPPORTUNITY       EXCLUSION OF
                                                                                               PROJECTILES) OF THE                             SOURCES




      40
                                                                                               MILITARY WORKING DOG
                                                                                                                                                                              Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                               (MWD) RELOCATION PROJECT
                                                                                               SITE AT NAVAL BASE GUAM.
                              DON      N4019210D0006          50,000,000         (3,180)       MODIFICATION TO DE-SCOPE      SUBJECT TO        FULL AND OPEN          4
                                                                                               COMMUNITY OUTREACH            MULTIPLE          COMPETITION
                                                                                               FOR THE MUNITIONS AND         AWARD FAIR        AFTER
                                                                                               EXPLOSIVES OF CONCERN         OPPORTUNITY       EXCLUSION OF
                                                                                               (MEC) CLEARANCE FOR THE                         SOURCES
                                                                                               MILITARY WORKING DOG
                                                                                               FACILITIES REPLACEMENT
                                                                                               PROJECT, U.S. NAVAL BASE,
                                                                                               GUAM.
                                                                             Amount Obligated
                                         Contract, Grant,                       January 1-
                                          Agreement, or                       December 31,
                                          Other Funding                            2012                                       Method Used to                         Offers
                               Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description       Solicit Offers    Offers Solicited   Received
                               DON      N4019210D0006          50,000,000         49,976        MODIFICATION TO               SUBJECT TO        FULL AND OPEN          3
                                                                                                ADD MUNITIONS AND             MULTIPLE          COMPETITION
                                                                                                EXPLOSIVES OF CONCERN         AWARD FAIR        AFTER
                                                                                                (MEC) CLEARANCE FOR           OPPORTUNITY       EXCLUSION OF
                                                                                                ADDITIONAL ELECTRICAL AND                       SOURCES
                                                                                                COMMUNICATION CORRIDOR
                                                                                                ACROSS SHORELINE DRIVE
                                                                                                TO MILITARY WORKING DOG
                                                                                                PROJECT SITE AND TO CLEAR
                                                                                                TWO LOCATIONS WHERE
                                                                                                MEC SMALL ARMS WERE
                                                                                                DISCOVERED
                               DON      N4019210D0006          50,000,000        158,467        TASK ORDER FOR FULL           SUBJECT TO        FULL AND OPEN          3
                                                                                                CLEARANCE AHEAD OF            MULTIPLE          COMPETITION
                                                                                                CONSTRUCTION WITHIN           AWARD FAIR        AFTER
                                                                                                THE PROJECT LIMITS OF         OPPORTUNITY       EXCLUSION OF




      41
                                                                                                MILITARY WORKING DOG,                           SOURCES
                                                                                                MUNITIONS AND EXPLOSIVES
                                                                                                OF CONCERN PROJECT:
                                                                                                CLEARANCE FOR UTILITY
                                                                                                CORRIDORS, U.S. NAVAL BASE
                                                                                                GUAM
                               DON      N4019210D0007          50,000,000        196,193        MODIFICATION TO               SUBJECT TO        SUBJECT TO             4
                                                                                                INCORPORATE THE               MULTIPLE          MULTIPLE
                                                                                                FOLLOWING NORTH RAMP          AWARD FAIR        AWARD FAIR
                                                                                                MUNITIONS AND EXPLOSIVES      OPPORTUNITY       OPPORTUNITY
                                                                                                OF CONCERN SERVICES:
                                                                                                ACQUIRE THE BALANCE OF
                                                                                                ANOMALIES IN ACCORDANCE
                                                                                                WITH THE DGM REPORT
                                                                                                TO PROVIDE MEC FULL
                                                                                                CLEARANCE OF NORTH
                                                                                                RAMP PROJECT LIMITS AND
                                                                                                TO INCLUDE MEC ESCORT
                                                                                                SERVICES, SUPPORT
                                                                                                BORINGS AND TEST PITS, FULL
                                                                                                CLEARANCE AND HAZMAT
                                                                                                DISPOSAL FOR NORTH RAMP
                                                                                                SINKHOLE, ANDERSON AIR
                                                                                                FORCE BASE, GUAM.
                                                                                                                                                                               Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                                 Mechanisms Data (Section 2835(e)(1)(E))




        February 1, 2013
Guam Realignment Report
                           	         Section 2835(e)(1)(E)
                          	         Section 2835(e)(1)(E)

                                                                            Amount Obligated
                                        Contract, Grant,                       January 1-
                                         Agreement, or                       December 31,
                                         Other Funding                            2012                                        Method Used to                         Offers
                              Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description        Solicit Offers    Offers Solicited   Received
                              DON      N4019210D0007          50,000,000        635,190        MODIFICATION TO ADD AND        SUBJECT TO        SUBJECT TO             4




February 1, 2013
                                                                                               DEDUCT MUNITIONS AND           MULTIPLE          MULTIPLE
                                                                                               EXPLOSIVE OF CONCERN           AWARD FAIR        AWARD FAIR
                                                                                               (MEC) SERVICES FOR THE         OPPORTUNITY       OPPORTUNITY
                                                                                               NORTH RAMP PARKING,
                                                                                               UTILITIES, AND COMM DUCT




Guam Realignment Report
                                                                                               BANK AT THE ANDERSEN AIR
                                                                                               FORCE BASE, GUAM.
                              DON      N4019210D0007          50,000,000        304,452        MODIFICATION TO ADD MEC        SUBJECT TO        SUBJECT TO             4
                                                                                               SERVICES FOR THE NORTH         MULTIPLE          MULTIPLE
                                                                                               RAMP PARKING, UTILITIES, AND   AWARD FAIR        AWARD FAIR
                                                                                               COMMUNICATION DUCT BANK        OPPORTUNITY       OPPORTUNITY
                                                                                                                                                                               Mechanisms Data (Section 2835(e)(1)(E))




                                                                                               AT ANDERSEN AIR FORCE
                                                                                               BASE, GUAM.
                              DON      N4019210D0007          50,000,000        431,038        MODIFICATION TO ADD            SUBJECT TO        SUBJECT TO             4
                                                                                               MUNITIONS AND EXPLOSIVES       MULTIPLE          MULTIPLE
                                                                                               OF CONCERN SERVICES FOR        AWARD FAIR        AWARD FAIR
                                                                                               THE NORTH RAMP PROJECT,        OPPORTUNITY       OPPORTUNITY
                                                                                               ANDERSEN AIR FORCE BASE,




      42
                                                                                               GUAM.
                                                                                                                                                                               Section 5: Contracts, Grants, Agreements, or Other Funding




                              DON      N4019210D0007          50,000,000        (25,443)       MODIFICATION TO REDUCE         SUBJECT TO        SUBJECT TO             4
                                                                                               CONTRACT AMOUNT FOR P204       MULTIPLE          MULTIPLE
                                                                                               PART C - CABLE HUT, FOR THE    AWARD FAIR        AWARD FAIR
                                                                                               OVERSTATED 87 ANOMALIES.       OPPORTUNITY       OPPORTUNITY
                              DON      N4019210D0007          50,000,000        160,000        MODIFICATION TO ADD TASK       SUBJECT TO        FULL AND OPEN          4
                                                                                               9 MEC CONSTRUCTION             MULTIPLE          COMPETITION
                                                                                               SUPPORT ACTIVITIES FOR         AWARD FAIR        AFTER
                                                                                               ADDITIONAL CONSTRUCTION        OPPORTUNITY       EXCLUSION OF
                                                                                               SUPPORT ACTIVITIES                               SOURCES
                                                                                               MUNITIONS AND EXPLOSIVES
                                                                                               OF CONCERN SERVICES WORK
                                                                                               TO THE NORTH RAMP PARKING
                                                                                               PROJECT AT ANDERSEN AIR
                                                                                               FORCE BASE, GUAM
                                                                             Amount Obligated
                                         Contract, Grant,                       January 1-
                                          Agreement, or                       December 31,
                                          Other Funding                            2012                                        Method Used to                         Offers
                               Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description        Solicit Offers    Offers Solicited   Received
                               DON      N4019210D0007          50,000,000         72,501        "MODIFICATION TO CAPTURE       SUBJECT TO        SUBJECT TO             4
                                                                                                THE FOLLOWING FOR              MULTIPLE          MULTIPLE
                                                                                                PROJECT P204 PART C - CABLE    AWARD FAIR        AWARD FAIR
                                                                                                HUT, APRA HARBOR, GUAM:        OPPORTUNITY       OPPORTUNITY
                                                                                                1) BUY AN ADDITIONAL 156
                                                                                                ANOMALIES
                                                                                                2) NIGHT WORK TO INCLUDE
                                                                                                LABOR
                                                                                                3) MAG&DIG EXTRA 400 SF
                                                                                                4) TIME EXTENSION: 187 DAYS;
                                                                                                NEW CCD IS 09 JUN 2012"
                               DON      N4019210D0007          50,000,000        427,280        TASK ORDER FOR MUNITIONS       SUBJECT TO        FULL AND OPEN          3
                                                                                                AND EXPLOSIVES OF              MULTIPLE          COMPETITION
                                                                                                CONCERN CLEARANCE              AWARD FAIR        AFTER
                                                                                                PHASE 3 FOR INTRUSIVE          OPPORTUNITY       EXCLUSION OF
                                                                                                INVESTIGATION FOR P-100/P-                       SOURCES




      43
                                                                                                100A, P-101/101A NORTH RAMP
                                                                                                PARKING, UTILITIES, AND
                                                                                                COMMUNICATION DUCT BANK
                                                                                                AT AAFB, GUAM
                                                                                                                                                                                Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                                  Mechanisms Data (Section 2835(e)(1)(E))




        February 1, 2013
Guam Realignment Report
                           	         Section 2835(e)(1)(E)
                          	         Section 2835(e)(1)(E)

                                                                            Amount Obligated
                                        Contract, Grant,                       January 1-
                                         Agreement, or                       December 31,
                                         Other Funding                            2012                                       Method Used to                         Offers
                              Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description       Solicit Offers    Offers Solicited   Received
                              DON      N4019210D2800         500,000,000        203,590        MODIFICATION FOR PROJECT      SUBJECT TO        FULL AND OPEN          6




February 1, 2013
                                                                                               P-100 NORTH RAMP UTILITIES,   MULTIPLE          COMPETITION
                                                                                               INCREMENT 1&#XBF;             AWARD FAIR        AFTER
                                                                                               TO INCORPORATE THE            OPPORTUNITY       EXCLUSION OF
                                                                                               FOLLOWING REVISED PART                          SOURCES
                                                                                               A SPEC SECTIONS CHANGES




Guam Realignment Report
                                                                                               AND THEIR RESPECTIVE
                                                                                               ATTACHMENTS:&#XBF;
                                                                                               REVISED SOW PART 1&2,
                                                                                               ATTACHMENT 1-3 OF 7&#XBF;
                                                                                               IFIT TREES AND LOGS,
                                                                                               ATTACHMENT 4 OF 7&#XBF;
                                                                                               HANDLING OF HIGH VALUE
                                                                                                                                                                              Mechanisms Data (Section 2835(e)(1)(E))




                                                                                               TREES, ATTACHMENT 5 OF
                                                                                               7&#XBF; IFIT PROPOSED IFIT
                                                                                               STORAGE, ATTACHMENT 6-7 OF
                                                                                               7&#XBF; PHOTO CD LOCATION
                                                                                               OF IFIT TREES THESE
                                                                                               RELATED TO ENVIRONMENTAL
                                                                                               SPECIFICATIONS NOT




      44
                                                                                               ADDRESSED DURING THE
                                                                                                                                                                              Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                               INITIAL RFP PHASE.
                              DON      N4019210D2800         500,000,000     (1,739,304)       MODIFICATION FOR PROJECT      SUBJECT TO        FULL AND OPEN          6
                                                                                               P-100 NORTH RAMP UTILITIES,   MULTIPLE          COMPETITION
                                                                                               INCREMENT 1&#XBF; TO          AWARD FAIR        AFTER
                                                                                               DEDUCT SANITARY SEWER         OPPORTUNITY       EXCLUSION OF
                                                                                               AND WATER DISTRIBUTION                          SOURCES
                              DON      N4019210D2801         500,000,000          3,350        MODIFICATION TO ADD           SUBJECT TO        FULL AND OPEN          6
                                                                                               THE FOLLOWING WORK IN         MULTIPLE          COMPETITION
                                                                                               ACCORDANCE WITH FAR           AWARD FAIR        AFTER
                                                                                               CLAUSE 52.243-4 (JUN 2007)    OPPORTUNITY       EXCLUSION OF
                                                                                               FOR MCON PROJECT P204                           SOURCES
                                                                                               WHARF IMPROVEMENTS, APRA
                                                                                               PH 1 (PART C) CABLE HUT,
                                                                                               NAVAL BASE GUAM: PROVIDE
                                                                                               ADDITIONAL SURVEYOR
                                                                                               SUPPORT TO VALIDATE THE
                                                                                               MEC GEOPHYSICAL SURVEY
                                                                                               LOCATIONS.
                                                                             Amount Obligated
                                         Contract, Grant,                       January 1-
                                          Agreement, or                       December 31,
                                          Other Funding                            2012                                        Method Used to                         Offers
                               Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description        Solicit Offers    Offers Solicited   Received
                               DON      N4019210D2801         500,000,000       (233,411)       MODIFICATION TO DELETE         SUBJECT TO        FULL AND OPEN          6
                                                                                                THE MEC CLEARANCE              MULTIPLE          COMPETITION
                                                                                                REQUIREMENTS FROM THE          AWARD FAIR        AFTER
                                                                                                PRIME CONTRACTOR FOR           OPPORTUNITY       EXCLUSION OF
                                                                                                CABLE HUT, PART C.                               SOURCES
                               DON      N4019210D2801         500,000,000         51,838        "MODIFICATION TO               SUBJECT TO        FULL AND OPEN          6
                                                                                                INCOPORATE THE FOLLOWING       MULTIPLE          COMPETITION
                                                                                                CHANGES P204 CABLE HUT,        AWARD FAIR        AFTER
                                                                                                PART C:                        OPPORTUNITY       EXCLUSION OF
                                                                                                1. RELOCATION OF                                 SOURCES
                                                                                                TELECOMMUNICATION
                                                                                                MANHOLES AND NEW BUILDING
                                                                                                3012 CONNECTION
                                                                                                2. CATV REVISIONS
                                                                                                3. ADDITIONAL IDS PROVISIONS
                                                                                                4. EYEWASH REVISIONS"




      45
                               DON      N4019210D2801         500,000,000         40,552        "MODIFICATION TO DEDUCT        SUBJECT TO        FULL AND OPEN          6
                                                                                                AND ADD THE FOLLOWING          MULTIPLE          COMPETITION
                                                                                                WORK FOR P204 CABLE HUT,       AWARD FAIR        AFTER
                                                                                                PART C:                        OPPORTUNITY       EXCLUSION OF
                                                                                                1. REDESIGN HVAC SYSTEM IN                       SOURCES
                                                                                                ACCORDANCE WITH REVISED
                                                                                                HEAT LOAD CALCULATIONS.
                                                                                                2. PROVIDE AND INSTALL A
                                                                                                THREE (3) TON HVAC UNIT.
                                                                                                3. REROUTE DESIGNED
                                                                                                DUCTWORK THAT IS
                                                                                                CURRENTLY SHOWN TO
                                                                                                BE INSTALLED OVER THE
                                                                                                ELECTRICAL EQUIPMENT AND
                                                                                                WORKING SPACE.
                                                                                                4. PROVIDE ADDITIONAL DUCT
                                                                                                WORK FOR THE BYPASS ON
                                                                                                THE FIBER LINE
                                                                                                5. REMOVE INTERIOR
                                                                                                EYEWASH STATION FROM THE
                                                                                                BATTERY ROOM"
                                                                                                                                                                                Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                                  Mechanisms Data (Section 2835(e)(1)(E))




        February 1, 2013
Guam Realignment Report
                           	         Section 2835(e)(1)(E)
                          	         Section 2835(e)(1)(E)

                                                                            Amount Obligated
                                        Contract, Grant,                       January 1-
                                         Agreement, or                       December 31,
                                         Other Funding                            2012                                        Method Used to                         Offers
                              Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description        Solicit Offers    Offers Solicited   Received
                              DON      N4019210D2801         500,000,000        130,297        TUMON MAUI WELL                SUBJECT TO        FULL AND OPEN          5




February 1, 2013
                                                                                               REHABILITATION PROJECT:        MULTIPLE          COMPETITION
                                                                                               MODIFICATION TO PERFORM        AWARD FAIR        AFTER
                                                                                               HAZARDOUS WASTE                OPPORTUNITY       EXCLUSION OF
                                                                                               MITIGATION IN THE TUMON                          SOURCES
                                                                                               MAUI WELL TUNNEL AREAS,




Guam Realignment Report
                                                                                               PUMP ROOM AND VENTILATION
                                                                                               SHAFT.
                              DON      N4019210D2803         500,000,000       (192,426)       "FY 10 MILCON PROJECT          SUBJECT TO        FULL AND OPEN          6
                                                                                               NORTH RAMP PARKING             MULTIPLE          COMPETITION
                                                                                               COMMUNICATION DUCT BANK,       AWARD FAIR        AFTER
                                                                                               ANDERSEN AIR FORCE BASE        OPPORTUNITY       EXCLUSION OF
                                                                                                                                                                               Mechanisms Data (Section 2835(e)(1)(E))




                                                                                               (AAFB), GUAM: MODIFICATION                       SOURCES
                                                                                               TO INCORPORATE THE
                                                                                               FOLLOWING:
                                                                                               1. DEDUCT REQUIREMENT
                                                                                               FOR MAINTENANCE COILS
                                                                                               OF 1200PR COPPER IN EACH
                                                                                               MANHOLE (~680M).




      46
                                                                                               2. DEDUCT REQUIREMENT FOR
                                                                                               FIFTEEN (15) 4-INCH CONDUITS
                                                                                                                                                                               Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                               FROM B2616 TO INTERSECTION
                                                                                               OF 38TH AND 33RD STREETS.
                                                                                               3. PROVIDE EIGHT (8) 4-INCH
                                                                                               CONDUITS FROM B2616 TO
                                                                                               INTERSECTION OF 38TH AND
                                                                                               33RD STREETS.
                                                                                               "
                              DON      N4019210D2803         500,000,000        281,397        FY 10 MILCON PROJECT           SUBJECT TO        FULL AND OPEN          6
                                                                                               NORTH RAMP PARKING             MULTIPLE          COMPETITION
                                                                                               COMMUNICATION DUCT BANK,       AWARD FAIR        AFTER
                                                                                               ANDERSEN AIR FORCE BASE        OPPORTUNITY       EXCLUSION OF
                                                                                               (AAFB), GUAM: MODIFICATION                       SOURCES
                                                                                               TO ADD ADDITIONAL
                                                                                               MANHOLES INTO THE DESIGN
                                                                                               AND TO ANTICIPATE THE
                                                                                               DESIGN PASSING THROUGH
                                                                                               THE FUTURE AIR FREIGHT
                                                                                               TERMINAL FACILITY, WHICH
                                                                                               WAS OVERLOOK ON THE RFP
                                                                                               DESIGN STAGE.
                                                                             Amount Obligated
                                         Contract, Grant,                       January 1-
                                          Agreement, or                       December 31,
                                          Other Funding                            2012                                     Method Used to                         Offers
                               Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)         Scope / Description      Solicit Offers    Offers Solicited   Received
                               DON      N4019210D2803         500,000,000        262,677        FY 10 MILCON PROJECT        SUBJECT TO        FULL AND OPEN          6
                                                                                                NORTH RAMP PARKING          MULTIPLE          COMPETITION
                                                                                                COMMUNICATION DUCT          AWARD FAIR        AFTER
                                                                                                BANK, ANDERSEN AIR FORCE    OPPORTUNITY       EXCLUSION OF
                                                                                                BASE (AAFB), GUAM: THIS                       SOURCES
                                                                                                CHANGE WAS INITIATED
                                                                                                TO COMPLY WITH THE PA
                                                                                                (PROGRAMMATIC AGREEMENT)
                                                                                                AND ROD (RECORD OF
                                                                                                DECISION) REQUIREMENTS,
                                                                                                THE ENVIRONMENTAL
                                                                                                SPECIFICATIONS FOR
                                                                                                THIS PROJECT MUST BE
                                                                                                REVISED ACCORDINGLY. THE
                                                                                                MAGNITUDE OF THIS CHANGE
                                                                                                INCLUDED DESIGN SUBMITTAL
                                                                                                PROCEDURES, TEMPORARY
                                                                                                ENVIRONMENTAL CONTROLS,
                                                                                                CONSTRUCTION DEMOLITION
                                                                                                WASTE MANAGEMENT FOR




     47
                                                                                                DESIGN BUILD PROJECTS,
                                                                                                COMPREHENSIVE
                                                                                                CONSTRUCTION STORM
                                                                                                WATER POLLUTION
                                                                                                PREVENTION PLAN
                                                                                                (COMPREHENSIVE
                                                                                                SWPPP), COCONUT
                                                                                                RHINOCEROS BEETLE (CRB)
                                                                                                MANAGEMENT PROCEDURES,
                                                                                                COMPREHENSIVE
                                                                                                CONSTRUCTION & DEMOLITION
                                                                                                (C&D) AND SOLID WASTE
                                                                                                MANAGEMENT PLAN
                                                                                                (COMPREHENSIVE WMP),
                                                                                                DESIGN AND CONSTRUCTION
                                                                                                MITIGATION MONITORING
                                                                                                AND TRACKING PLAN,
                                                                                                FINAL GUAM LANDSCAPING
                                                                                                GUIDELINES. THIS CRITERIA
                                                                                                CHANGE IS A RESULT OF
                                                                                                CONTRACT AWARD PRIOR
                                                                                                TO THE INCORPORATION OF
                                                                                                THESE NEW ENVIRONMENTAL
                                                                                                SPECIFICATIONS.
                                                                                                                                                                             Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                               Mechanisms Data (Section 2835(e)(1)(E))




        February 1, 2013
Guam Realignment Report
                           	         Section 2835(e)(1)(E)
                          	         Section 2835(e)(1)(E)

                                                                            Amount Obligated
                                        Contract, Grant,                       January 1-
                                         Agreement, or                       December 31,
                                         Other Funding                            2012                                      Method Used to                         Offers
                              Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description      Solicit Offers    Offers Solicited   Received
                              DON      N4019210D2803         500,000,000        (23,177)       FY 10 MILCON PROJECT         SUBJECT TO        FULL AND OPEN          6




February 1, 2013
                                                                                               NORTH RAMP PARKING           MULTIPLE          COMPETITION
                                                                                               COMMUNICATION DUCT BANK,     AWARD FAIR        AFTER
                                                                                               ANDERSEN AIR FORCE BASE      OPPORTUNITY       EXCLUSION OF
                                                                                               (AAFB), GUAM: MODIFICATION                     SOURCES
                                                                                               TO REPLACE 24 AWG 1200PR




Guam Realignment Report
                                                                                               CU TO 22 AWG 900PR CU
                                                                                               CABLE FROM BLDG 2616 TO
                                                                                               THE END OF THE PROPOSED
                                                                                               NEW COMMUNICATION DUCT
                                                                                               BANK NEAR MH34-10 IN THE
                                                                                               SOUTH RAMP.
                                                                                                                                                                             Mechanisms Data (Section 2835(e)(1)(E))




                              DON      N4019210D2810         500,000,000        164,596        FY10 MCON P1003 - MILITARY   SUBJECT TO        FULL AND OPEN          6
                                                                                               WORKING DOG RELOCATION:      MULTIPLE          COMPETITION
                                                                                               MODIFICATION TO              AWARD FAIR        AFTER
                                                                                               INCORPORATE ELECTRONIC       OPPORTUNITY       EXCLUSION OF
                                                                                               SECURITY SYSTEM.                               SOURCES
                              DON      N4019210D2810         500,000,000     14,141,800        TASK ORDER FOR FY10 MCON     SUBJECT TO        FULL AND OPEN          3
                                                                                               P-204, WHARF IMPROVEMENTS    MULTIPLE          COMPETITION




      48
                                                                                               (UNIFORM&TANGO) APRA         AWARD FAIR        AFTER
                                                                                                                                                                             Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                               PHASE 1 (SECONDARY PART      OPPORTUNITY       EXCLUSION OF
                                                                                               E), TO PROVIDE FOR WHARF                       SOURCES
                                                                                               STRENGTHENING, MOORING
                                                                                               AND BERTHING SYSTEM,
                                                                                               UTILITIES AND WHARF STORM
                                                                                               DRAIN SYSTEMS, ELECTRICAL
                                                                                               AND COMMUNICATION
                                                                                               SYSTEMS, DEMOLITION AND
                                                                                               RECONSTRUCTION OF A
                                                                                               GENERATOR BUILDING, AND
                                                                                               SITE IMPROVEMENTS AT
                                                                                               TANGO WHARF, NAVAL BASE
                                                                                               GUAM
                                                                             Amount Obligated
                                         Contract, Grant,                       January 1-
                                          Agreement, or                       December 31,
                                          Other Funding                            2012                                       Method Used to                          Offers
                               Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description       Solicit Offers     Offers Solicited   Received
                               DON      N401921228001       Not applicable       348,694        DOCUMENTATION OF THE          RSOI (Request      FULL AND OPEN          1
                                                                                                COOPERATIVE AGREEMENT         for Statement of   COMPETITION
                                                                                                BETWEEN THE DEPT OF NAVY      Interest)
                                                                                                AND THE UNIVERSITY OF
                                                                                                GUAM TO CONDUCT FEDERAL
                                                                                                CANDIDATE SPECIES SURVEYS
                                                                                                ON GUAM.
                               DON      N4019212P5001       Not applicable        30,050        THIS PROJECT IS FOR           SIMPLIFIED         COMPETED               3
                                                                                                CONSERVATION OF CYCADS        ACQUISITION        UNDER SAP
                                                                                                INCLUSIVE OF REMOVAL
                                                                                                FROM ANDERSON AIR
                                                                                                FORCE BASE, GU AND OFF-
                                                                                                SITE TRANSPLANTING OF A
                                                                                                MINIMUM 40 CYCADS.
                               DON      N6247009D2003          20,000,000        (43,627)       ADMIN RECORD FOR THE      ARCHITECT-   FULL AND OPEN                    4
                                                                                                GUAM MILITARY BUILD       ENGINEER FAR COMPETITION




      49
                                                                                                ENVIRONMENTAL IMPACT      6.102
                                                                                                STATEMENT/OVERSEAS
                                                                                                ENVIRONMENTAL IMPACT
                                                                                                STATEMENT - RECORD
                                                                                                NUMBER TO BE REVIEWED FOR
                                                                                                FIRING RANGE IS REDUCED
                               DON      N6247010D3008          40,000,000       (287,215)       T4C - REMAINING ARCHITECT-    ARCHITECT-   FULL AND OPEN                5
                                                                                                ENGINEER SERVICES FOR         ENGINEER FAR COMPETITION
                                                                                                COMMUNITY PLANS AND           6.102
                                                                                                LIAISON OFFICE (CP&LO)
                                                                                                SUPPORT&GUAM COMMUNITY
                                                                                                INTEGRATED MASTER PLAN
                                                                                                (CIMP) ARE NO LONGER
                                                                                                REQUIRED. THIS IS A NO-COST
                                                                                                SETTLEMENT TO DELETE
                                                                                                REMAINING WORK UNDER
                                                                                                THE TASK ORDER FOR THE
                                                                                                DEVELOPMENT OF A CIMP.
                                                                                                                                                                                Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                                  Mechanisms Data (Section 2835(e)(1)(E))




        February 1, 2013
Guam Realignment Report
                           	         Section 2835(e)(1)(E)
                          	         Section 2835(e)(1)(E)

                                                                            Amount Obligated
                                        Contract, Grant,                       January 1-
                                         Agreement, or                       December 31,
                                         Other Funding                            2012                                     Method Used to                         Offers
                              Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description     Solicit Offers    Offers Solicited   Received
                              DON      N6247010D3011          50,000,000         28,495        WATERSHED                   NEGOTIATED        FULL AND OPEN          5




February 1, 2013
                                                                                               RECONNAISSANCE STUDIES      PROPOSAL/         COMPETITION
                                                                                               FOR THE POTENTIAL SITE      QUOTE
                                                                                               OF THE LIVE FIRE TRAINING
                                                                                               RANGE COMPLEX GUAM:
                                                                                               MODIFICATION TO SURVEY




Guam Realignment Report
                                                                                               TWO WATERSHEDS AT
                                                                                               RECONNAISSANCE LEVEL
                                                                                               FOR PLACEMENT OF LFTRC IN
                                                                                               GUAM FOR JGPO SEIS.
                              DON      N6274206D1870          65,000,000            (51)       WASTEWATER STUDIES TO      ARCHITECT-   FULL AND OPEN                4
                                                                                               SUPPORT EIS MC RELOCATION: ENGINEER FAR COMPETITION
                                                                                                                                                                            Mechanisms Data (Section 2835(e)(1)(E))




                                                                                               MODIFICATION TO DEOBLIGATE 6.102
                                                                                               EXCESS FUNDS.
                              DON      N6274206D1870          65,000,000         (1,866)       NATURAL RESOURCES           ARCHITECT-   FULL AND OPEN               4
                                                                                               SURVEYS OF GUAM IN          ENGINEER FAR COMPETITION
                                                                                               SUPPORT OF A MARINE CORPS   6.102
                                                                                               RESTORATION INITIATIVE
                                                                                               TO VARIOUS LOCATIONS ON




      50
                                                                                               GUAM: MODIFICATION TO
                                                                                                                                                                            Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                               DEOBLIGATE EXCESS FUNDS.
                              DON      N6274206D1870          65,000,000        (85,661)       TASKS IN SUPPORT OF AN     ARCHITECT-   FULL AND OPEN                4
                                                                                               EIS/OEIS FOR JGPO ACTIONS, ENGINEER FAR COMPETITION
                                                                                               MASTER INTERGRATED         6.102
                                                                                               SECHDULE (MIS) FOR
                                                                                               RELOCATION OF MARINES
                                                                                               TO THE MARIANA ISLAND:
                                                                                               MODIFICATION TO DEOBLIGATE
                                                                                               EXCESS FUNDS.
                              DON      N6274206D1870          65,000,000             (2)       AIR STUDY, GUAM:           ARCHITECT-   FULL AND OPEN                4
                                                                                               MODIFICATION TO DEOBLIGATE ENGINEER FAR COMPETITION
                                                                                               EXCESS FUNDS.              6.102
                              DON      N6274206D1870          65,000,000             (1)       NEW WELLS, WATER WELL      ARCHITECT-   FULL AND OPEN                4
                                                                                               TESTING STUDY IN SUPPORT   ENGINEER FAR COMPETITION
                                                                                               OF THE EIS MC RELOCATION:  6.102
                                                                                               MODIFICATION TO DEOBLIGATE
                                                                                               EXCESS FUNDS.
                                                                             Amount Obligated
                                         Contract, Grant,                       January 1-
                                          Agreement, or                       December 31,
                                          Other Funding                            2012                                      Method Used to                        Offers
                               Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description      Solicit Offers   Offers Solicited   Received
                               DON      N6274206D1870          65,000,000        (51,694)       MODIFICATION TO DELETE       ARCHITECT-   FULL AND OPEN              4
                                                                                                THE UTILITIES REVIEW AND     ENGINEER FAR COMPETITION
                                                                                                RIGHT-OF-WAY MITIGATION      6.102
                                                                                                METHODOLOGY. TASK
                                                                                                ORDER 0037 PROVIDED
                                                                                                TECHNICAL REVIEW OF
                                                                                                (1) TRANSPORTATION
                                                                                                INFRASTRUCTURE IMPACTS
                                                                                                DUE TO COMMUNITY BUILD-
                                                                                                UP AND (2) GUAM HAUL
                                                                                                ROAD NETWORK, REMAINING
                                                                                                SERVICES LIFE PROJECT.
                               DON      N6274206D1870          65,000,000         (6,390)       REMOTE SENSING WETLAND       ARCHITECT-   FULL AND OPEN              4
                                                                                                MAPPING FOR LEAST            ENGINEER FAR COMPETITION
                                                                                                ENVIRONMENTAL DAMAGING       6.102
                                                                                                PRACTICABLE ALTERNATIVE




      51
                                                                                                IN SUPPORT OF THE EIS FOR
                                                                                                THE GUAM AND CNMI MILITARY
                                                                                                RELOCATION: MODIFICATION
                                                                                                TO DEOBLIGATE EXCESS
                                                                                                FUNDS.
                               DON      N6274206D1870          65,000,000          (900)        ALTERNATIVES ANALYSIS        ARCHITECT-   FULL AND OPEN              4
                                                                                                REPORT BASED UPON THE        ENGINEER FAR COMPETITION
                                                                                                Marine Corps DISTRIBUTED     6.102
                                                                                                LAYDOWN. E0112VE PLANNING
                                                                                                PHASE II: MODIFICATION TO
                                                                                                DEOBLIGATE EXCESS FUNDS.
                               DON      N6274208D0009         100,000,000          5,355        MODIFICATION TO              ARCHITECT-   FULL AND OPEN              6
                                                                                                INCORPORATE TRAVEL TO        ENGINEER FAR COMPETITION
                                                                                                GUAM FOR ON-SITE GIS         6.102
                                                                                                SUPPORT FOR LIVE FIRE
                                                                                                TRAINING RANGE COMPLEX
                                                                                                ALTERNATIVES ANALYSIS.
                                                                                                TASK ORDER 0029 IS FOR GIS
                                                                                                SUPPORT.
                                                                                                                                                                             Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                               Mechanisms Data (Section 2835(e)(1)(E))




        February 1, 2013
Guam Realignment Report
                           	         Section 2835(e)(1)(E)
                          	         Section 2835(e)(1)(E)

                                                                            Amount Obligated
                                        Contract, Grant,                       January 1-
                                         Agreement, or                       December 31,
                                         Other Funding                            2012                                       Method Used to                        Offers
                              Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description       Solicit Offers   Offers Solicited   Received
                              DON      N6274208D0009         100,000,000         59,998        MODIFICATION FOR              ARCHITECT-   FULL AND OPEN              6




February 1, 2013
                                                                                               ADDITIONAL POST               ENGINEER FAR COMPETITION
                                                                                               CONSTRUCTION AWARD            6.102
                                                                                               SERVICES FOR JFY09 J-001
                                                                                               GUAM UTILITIES AND SITE
                                                                                               IMPROVEMENTS - PH I, APRA




Guam Realignment Report
                                                                                               HARBOR, GUAM
                              DON      N6274208D0009         100,000,000        354,634        TASK ORDER FOR GIS            ARCHITECT-   FULL AND OPEN              6
                                                                                               SUPPORT SERVICES FOR THE      ENGINEER FAR COMPETITION
                                                                                               PERIOD 30 SEPTEMBER 2012      6.102
                                                                                               TO 29 SEPTEMBER 2013.
                              DON      N6274208D0201           7,500,000        480,394        TASK ORDER FOR Marine Corps   ARCHITECT-   FULL AND OPEN              5
                                                                                                                                                                             Mechanisms Data (Section 2835(e)(1)(E))




                                                                                               OAHU LAND USE STUDY           ENGINEER FAR COMPETITION
                                                                                                                             6.102        AFTER
                                                                                                                                          EXCLUSION OF
                                                                                                                                          SOURCES
                              DON      N6274209D0002         100,000,000         69,286        MODIFICATION TO               ARCHITECT-   FULL AND OPEN              4
                                                                                               INCORPORATE ADDITIONAL        ENGINEER FAR COMPETITION




      52
                                                                                               POST CONSTRUCTION AWARD       6.102
                                                                                               SERVICES FOR TO 0006 FOR
                                                                                                                                                                             Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                               FY10 MCON P-204 WHARF
                                                                                               IMPROVEMENTS, APRA PH 1.
                              DON      N6274209D0002         100,000,000         60,046        MODIFICATION TO               ARCHITECT-   FULL AND OPEN              4
                                                                                               INCORPORATE ADDITIONAL        ENGINEER FAR COMPETITION
                                                                                               POST CONSTRUCTION AWARD       6.102
                                                                                               SERVICES FOR TO 0006 FOR
                                                                                               FY10 MCON P-204 WHARF
                                                                                               IMPROVEMENTS, APRA PH I,
                                                                                               APRA HARBOR, GUAM
                              DON      N6274210D0003          50,000,000        (69,971)       MODIFICATION TO CANCEL        ARCHITECT-   FULL AND OPEN             17
                                                                                               WORK RELATED TO               ENGINEER FAR COMPETITION
                                                                                               CONSTRUCTION PHASE            6.102
                                                                                               LEED DOCUMENTATION
                                                                                               AND FUNDAMENTAL
                                                                                               COMMISSIONING SERVICES
                                                                                               FOR TASK ORDER 0001 FOR
                                                                                               GOJ JFY10 WATERFRONT
                                                                                               HEADQUARTERS BUILDING,
                                                                                               APRA HARBOR, GUAM.
                                                                             Amount Obligated
                                         Contract, Grant,                       January 1-
                                          Agreement, or                       December 31,
                                          Other Funding                            2012                                      Method Used to                         Offers
                               Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description      Solicit Offers    Offers Solicited   Received
                               DON      N6274210D0003          50,000,000       (219,361)       MODIFICATION TO CANCEL       ARCHITECT-   FULL AND OPEN              17
                                                                                                WORK RELATED TO THE          ENGINEER FAR COMPETITION
                                                                                                100% SUBMITTAL, FINAL        6.102
                                                                                                SUBMITTAL, DESIGN QUALITY
                                                                                                CONTROL PLAN CHECKLIST,
                                                                                                AND EXTERIOR COLOR/
                                                                                                MATERIAL SAMPLE BOARDS
                                                                                                FOR TASK ORDER 0003 FOR
                                                                                                JFY09 J-010 BEQ PROTOTYPE
                                                                                                DESIGN, MARINE CORPS BASE,
                                                                                                FINEGAYAN, GUAM.
                               DON      N6274210D1309       4,000,000,000         15,109        P-204 APRA HARBOR WHARF      SUBJECT TO        FULL AND OPEN          7
                                                                                                IMPROVEMENTS UNIFORM AND     MULTIPLE          COMPETITION
                                                                                                TANGO (PARTS A&B), NAVAL     AWARD FAIR
                                                                                                BASE GUAM: MODIFICATION      OPPORTUNITY
                                                                                                TO PROVIDE FOR ALL DESIGN




      53
                                                                                                EFFORT REQUIRED DUE
                                                                                                TO THE CANCELLATION
                                                                                                OF ADDITIONAL WORK
                                                                                                REQUESTED UNDER RFP FOR
                                                                                                PC09 DATED 23 JUNE 2011.
                                                                                                THIS WORK WAS DIRECTED
                                                                                                BY THE DM DURING THE 60%
                                                                                                DESIGN REVIEW AND THE
                                                                                                CONTRACTOR COMPLETED
                                                                                                THE CHANGES IN GOOD FAITH.
                                                                                                ALL THE WORK COVERED
                                                                                                UNDER PC09 WAS REMOVED
                                                                                                FROM THE P-204 PROGRAM
                                                                                                UPON AWARD OF J001.
                                                                                                                                                                              Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                                Mechanisms Data (Section 2835(e)(1)(E))




        February 1, 2013
Guam Realignment Report
                           	         Section 2835(e)(1)(E)
                          	         Section 2835(e)(1)(E)

                                                                            Amount Obligated
                                        Contract, Grant,                       January 1-
                                         Agreement, or                       December 31,
                                         Other Funding                            2012                                      Method Used to                         Offers
                              Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description      Solicit Offers    Offers Solicited   Received
                              DON      N6274210D1309       4,000,000,000        346,244        P-204 APRA HARBOR WHARF      SUBJECT TO        FULL AND OPEN          7




February 1, 2013
                                                                                               IMPROVEMENTS UNIFORM AND     MULTIPLE          COMPETITION
                                                                                               TANGO (PARTS A&B), NAVAL     AWARD FAIR
                                                                                               BASE GUAM: MODIFICATION      OPPORTUNITY
                                                                                               TO PROVIDE ALL EFFORT




Guam Realignment Report
                                                                                               REQUIRED TO DEAL WITH TWO
                                                                                               DIFFEREING SITE CONDITIONS
                                                                                               DISCOVERED ON SITE. THE
                                                                                               FIRST IS A CONCRETE FIRE
                                                                                               SUPPRESSION VAULT WHICH
                                                                                               SHOWED AS A SIMPLE
                                                                                               CONCRET PAD ON ALL
                                                                                                                                                                             Mechanisms Data (Section 2835(e)(1)(E))




                                                                                               AVAILABLE DRAWINGS. THE
                                                                                               SECOND IS A NON-POTABLE
                                                                                               WATER LINE THAT WAS
                                                                                               DISCOVERED AND DIRECTED
                                                                                               BY NFM FPE AS A NECESSITY
                                                                                               TO REMOVE AND REPLACE
                                                                                               WITH NEW.




      54
                              DON      N6274210D1309       4,000,000,000         46,769        P-204 APRA HARBOR WHARF      SUBJECT TO        FULL AND OPEN          7
                                                                                                                                                                             Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                               IMPROVEMENTS UNIFORM AND     MULTIPLE          COMPETITION
                                                                                               TANGO (PARTS A&B), NAVAL     AWARD FAIR
                                                                                               BASE GUAM: MODIFICATION      OPPORTUNITY
                                                                                               TO INCORPORATE DESIGN
                                                                                               CHANGES TO THE DESIGN
                                                                                               BID BUILD PORTION OF THE
                                                                                               CONTRACT DUE TO H-PILE
                                                                                               TEST RESULTS NOT MEETING
                                                                                               THE REQUIREMENTS AS
                                                                                               EXPECTED BY THE DBB
                                                                                               DESIGNER OF RECORD.
                                                                             Amount Obligated
                                         Contract, Grant,                       January 1-
                                          Agreement, or                       December 31,
                                          Other Funding                            2012                                     Method Used to                         Offers
                               Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description     Solicit Offers    Offers Solicited   Received
                               DON      N6274210D1309       4,000,000,000        633,747        P-204 APRA HARBOR WHARF     SUBJECT TO        FULL AND OPEN          7
                                                                                                IMPROVEMENTS UNIFORM AND    MULTIPLE          COMPETITION
                                                                                                TANGO (PARTS A&B), NAVAL    AWARD FAIR
                                                                                                BASE GUAM: MODIFICATION     OPPORTUNITY
                                                                                                TO INCORPORATE CHANGES
                                                                                                TO THE CONTRACT, IN
                                                                                                ACCORDANCE WITH GUAM
                                                                                                MACC BUILDERS PROPOSAL
                                                                                                DATED MAY 01, 2012, FOR
                                                                                                THE CONSTRUCTION EFFORT
                                                                                                TO ACCOMMODATE THE
                                                                                                SLOTTED DRAIN AND REVISED
                                                                                                GRADING REQUIREMENTS
                                                                                                ALONG UNIFORM AND TANGO
                                                                                                WHARVES IN ACCORDANCE
                                                                                                WITH THE RESPONSE TO RFI




      55
                                                                                                D-025.
                               DON      N6274210D1309       4,000,000,000         94,997        P-204 APRA HARBOR WHARF     SUBJECT TO        FULL AND OPEN          7
                                                                                                IMPROVEMENTS UNIFORM AND    MULTIPLE          COMPETITION
                                                                                                TANGO (PARTS A&B), NAVAL    AWARD FAIR
                                                                                                BASE GUAM: MODIFICATION     OPPORTUNITY
                                                                                                TO INCORPORATE ADDITIONAL
                                                                                                ENVIRONMENTAL MONITORING
                                                                                                REQUIREMENTS DUE TO
                                                                                                HARD CORAL SPAWNING AS
                                                                                                REQUIRED BY US ACOE.
                               DON      N6274210D1309       4,000,000,000        110,800        P-204 APRA HARBOR WHARF     SUBJECT TO        FULL AND OPEN          7
                                                                                                IMPROVEMENTS UNIFORM AND    MULTIPLE          COMPETITION
                                                                                                TANGO (PARTS A&B), NAVAL    AWARD FAIR
                                                                                                BASE GUAM: MODIFICATION     OPPORTUNITY
                                                                                                TO INCORPORATE CHANGES
                                                                                                TO THE CONTRACT, IN
                                                                                                ACCORDANCE WITH GUAM
                                                                                                MACC BUILDERS PROPOSAL
                                                                                                DATED 15 JUNE 2012, FOR
                                                                                                FENDER REVISIONS AND
                                                                                                MOORING ARRANGEMENTS
                                                                                                ASSOCIATED WITH THE
                                                                                                RESPONSE TO RFI#C-45.
                                                                                                                                                                             Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                               Mechanisms Data (Section 2835(e)(1)(E))




        February 1, 2013
Guam Realignment Report
                           	         Section 2835(e)(1)(E)
                          	         Section 2835(e)(1)(E)

                                                                            Amount Obligated
                                        Contract, Grant,                       January 1-
                                         Agreement, or                       December 31,
                                         Other Funding                            2012                                      Method Used to                         Offers
                              Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description      Solicit Offers    Offers Solicited   Received
                              DON      N6274210D1309       4,000,000,000       (128,236)       P-204 APRA HARBOR WHARF      SUBJECT TO        FULL AND OPEN          7




February 1, 2013
                                                                                               IMPROVEMENTS UNIFORM AND     MULTIPLE          COMPETITION
                                                                                               TANGO (PARTS A&B), NAVAL     AWARD FAIR
                                                                                               BASE GUAM: DEDUCTIVE         OPPORTUNITY
                                                                                               MODIFICATION TO REIMBURSE
                                                                                               THE GOVERNMENT TO




Guam Realignment Report
                                                                                               CHANGES MADE BY THE
                                                                                               CONTRACTOR TO THE DESIGN
                                                                                               BID BUILD PORTION OF THE
                                                                                               WORK. THE CONTRACTOR
                                                                                               ELECTED TO USE A DIFFERENT
                                                                                               STEEL SHEET PILING SYSTEM,
                                                                                               WHICH WAS ALLOWED PER
                                                                                                                                                                             Mechanisms Data (Section 2835(e)(1)(E))




                                                                                               CONTRACT TERMS AT NO
                                                                                               ADDITIONAL COST TO THE
                                                                                               GOVERNMENT.
                              DON      N6274210D1309       4,000,000,000         67,066        P-204 APRA HARBOR WHARF      SUBJECT TO        FULL AND OPEN          7
                                                                                               IMPROVEMENTS UNIFORM         MULTIPLE          COMPETITION
                                                                                               AND TANGO (PARTS A&B),       AWARD FAIR




      56
                                                                                               NAVAL BASE GUAM: ADDITIVE/   OPPORTUNITY
                                                                                               DEDUCTIVE MOD TO REDUCE
                                                                                                                                                                             Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                               THE SIZE OF 6 MANHOLES
                                                                                               ALONG THE WHARF AND
                                                                                               PROVIDE A DEDICATED
                                                                                               CABINET FOR CABLE
                                                                                               TELEVISION SERVICES.
                              DON      N6274210D1309       4,000,000,000         32,314        P-204 APRA HARBOR WHARF      SUBJECT TO        FULL AND OPEN          7
                                                                                               IMPROVEMENTS UNIFORM AND     MULTIPLE          COMPETITION
                                                                                               TANGO (PARTS A&B), NAVAL     AWARD FAIR
                                                                                               BASE GUAM: MODIFICATION      OPPORTUNITY
                                                                                               TO ADD ADDITIONAL LUGS ON
                                                                                               HPILES ALONG TANGO WHARF
                                                                                               DUE TO RESULTS OF H-PILE
                                                                                               TESTING.
                                                                             Amount Obligated
                                         Contract, Grant,                       January 1-
                                          Agreement, or                       December 31,
                                          Other Funding                            2012                                        Method Used to                         Offers
                               Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description        Solicit Offers    Offers Solicited   Received
                               DON      N6274210D1309       4,000,000,000     (1,102,365)       P-204 APRA HARBOR WHARF        SUBJECT TO        FULL AND OPEN          7
                                                                                                IMPROVEMENTS UNIFORM AND       MULTIPLE          COMPETITION
                                                                                                TANGO (PARTS A&B), NAVAL       AWARD FAIR
                                                                                                BASE GUAM; MODIFICATION        OPPORTUNITY
                                                                                                TO RENEGOTIATE UNIT PRICE
                                                                                                FOR STONE COLUMNS IN
                                                                                                ACCORDANCE WITH FAR
                                                                                                CLAUSE 52.211-18 AS STATED
                                                                                                IN THE CONTRACT AWARD
                               DON      N6274210D1312       4,000,000,000      1,586,498        P-101 INC 1&P-101A INC 2/      SUBJECT TO        FULL AND OPEN          7
                                                                                                PC07: MODIFICATION TO          MULTIPLE          COMPETITION
                                                                                                EXPAND THE APRON IN THE        AWARD FAIR
                                                                                                NORTHEAST QUADRANT B,          OPPORTUNITY
                                                                                                REDUCE THE WESTERN EDGE
                                                                                                OF THE APRON AND ELIMINATE
                                                                                                THE TOWWAY. SCOPE ALSO




     57
                                                                                                INCLUDES INCORPORATING
                                                                                                PART 2 SPEC SECTION
                                                                                                CHANGES AND REMOVING
                                                                                                THE NORTH RAMP PARKING
                                                                                                DIRECT FUELING STATIONS,
                                                                                                RINSE STATION FACILITY AND
                                                                                                ASSOCIATED WORK.
                               DON      N6274210D1312       4,000,000,000        375,685        NR PARKING, P-101 INC          SUBJECT TO        FULL AND OPEN          7
                                                                                                1&P-101A INC 2/ PC07:          MULTIPLE          COMPETITION
                                                                                                MODIFICATION IAW SOW           AWARD FAIR
                                                                                                REV 01, ADDITIONAL             OPPORTUNITY
                                                                                                COMMUNICATION RELATED
                                                                                                REQUIREMENTS, DTD 24AUG12
                               DON      N6274210D1312       4,000,000,000         19,477        NR PARKING, P-101 INC          SUBJECT TO        FULL AND OPEN          7
                                                                                                1&P-101A INC 2/ PC08;          MULTIPLE          COMPETITION
                                                                                                RESTRIPE PARKING LOT           AWARD FAIR
                                                                                                                               OPPORTUNITY
                               DON      N6274210D1312       4,000,000,000         73,276        NR PARKING, P-101 INC          SUBJECT TO        FULL AND OPEN          7
                                                                                                1&P-101A INC 2/ PC09; DESIGN   MULTIPLE          COMPETITION
                                                                                                WASH RACK                      AWARD FAIR
                                                                                                                               OPPORTUNITY
                                                                                                                                                                                Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                                  Mechanisms Data (Section 2835(e)(1)(E))




        February 1, 2013
Guam Realignment Report
                           	         Section 2835(e)(1)(E)
                          	         Section 2835(e)(1)(E)

                                                                            Amount Obligated
                                        Contract, Grant,                       January 1-
                                         Agreement, or                       December 31,
                                         Other Funding                            2012                                    Method Used to                         Offers
                              Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description    Solicit Offers    Offers Solicited   Received
                              DON      N6274211C0400       Not applicable       467,330        JFY09 MIAMIZU J-001        NEGOTIATED        FULL AND OPEN          5




February 1, 2013
                                                                                               UTILITIES&SITE             PROPOSAL/         COMPETITION
                                                                                               IMPROVEMENTS, PHASE        QUOTE
                                                                                               I, GUAM: MODIFICATION
                                                                                               TO PROVIDE MEC/ MPPEH
                                                                                               SUPPORT FOR SURFACE




Guam Realignment Report
                                                                                               CLEARING AND GROUND
                                                                                               RADAR SUBSURFACE
                                                                                               INVESTIGATION FOR 20
                                                                                               MM MORTAR AND ABOVE.
                                                                                               SCOPE REQUIREMENTS
                                                                                               ARE TO DETECT, IDENTIFY
                                                                                               AND DEVELOP A MAP OF
                                                                                                                                                                           Mechanisms Data (Section 2835(e)(1)(E))




                                                                                               ANOMALIES SUSPECTED OF
                                                                                               BEING 20MM MORTAR AND
                                                                                               LARGER.
                              DON      N6274211C0400       Not applicable       932,110        JFY09 MAMIZU J-001 U&SI    NEGOTIATED        FULL AND OPEN          5
                                                                                               IMPROVEMENTS, PHASE        PROPOSAL/         COMPETITION
                                                                                               I (AAFB/APRA HARBOR),      QUOTE




      58
                                                                                               GUAM: MODIFICATION
                                                                                               TO INCORPORATE
                                                                                                                                                                           Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                               DPRI PROGRAMMATIC
                                                                                               AND ENVIRONMENTAL
                                                                                               REQUIREMENTS.
                              DON      N6274211C0400       Not applicable     1,863,254        JFY09 MAMIZU J-001         NEGOTIATED        FULL AND OPEN          5
                                                                                               UTILITIES&SITE             PROPOSAL/         COMPETITION
                                                                                               IMPROVEMENTS, PHASE        QUOTE
                                                                                               I (AAFB/APRA HARBOR),
                                                                                               GUAM: MODIFICATION FOR
                                                                                               MEC CLEARING TO PROVIDE
                                                                                               PRE-CONSTRUCTION AND
                                                                                               CONSTRUCTION SUPPORT
                                                                                               MEC CLEARANCE FOR J-001
                                                                                               ACE GATE.
                                                                             Amount Obligated
                                         Contract, Grant,                       January 1-
                                          Agreement, or                       December 31,
                                          Other Funding                            2012                                        Method Used to                         Offers
                               Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description        Solicit Offers    Offers Solicited   Received
                               DON      N6274211C0400       Not applicable        71,646        JFY09 MAMIZU J-001 UTILITIES NEGOTIATED          FULL AND OPEN          5
                                                                                                & SITE IMPROVEMENTS, PHASE PROPOSAL/             COMPETITION
                                                                                                I, APRA HARBOR, NAVAL BASE   QUOTE
                                                                                                GUAM: MODIFICATION TO
                                                                                                INCORPORATE REQUIREMENTS
                                                                                                TO COMPLY W/ CURRENT
                                                                                                UFC ELECTRICAL REQMTS TO
                                                                                                PROVIDE A GROUP TRIP FOR
                                                                                                ALL POWER MOUND CIRCUIT
                                                                                                BREAKERS. UFC CRITERIA
                                                                                                CHANGED AFTER CUT-OFF
                                                                                                DATE FOR PROPOSALS
                                                                                                DURIGN PRE-AWARD.
                               DON      N6274211C0400       Not applicable        (6,082)       JFY09 MAMIZU J-001 UTILITIES   NEGOTIATED        FULL AND OPEN          5
                                                                                                AND SITE IMPROVEMENTS,         PROPOSAL/         COMPETITION
                                                                                                PHASE I (ACE GATE): DELETE     QUOTE




      59
                                                                                                TERRAZZO FLORRINGS OF
                                                                                                COMM/ELECTRIC ROOMS OF
                                                                                                ECF, VIF&PASS&ID
                               DON      N6274211C0400       Not applicable        75,138        JFY09 MAMIZU J-001 UTILITIES   NEGOTIATED        FULL AND OPEN          5
                                                                                                AND SITE IMPROVEMENTS,         PROPOSAL/         COMPETITION
                                                                                                PHASE I, APRA HARBOR, NAVAL    QUOTE
                                                                                                BASE GUAM: MODIFICATION
                                                                                                TO PROVIDE TEST SWITCHES
                                                                                                FOR SEL 734 METERS AND
                                                                                                RELOCATE CIRCUIT BREAKERS
                               DON      N6274211C0400       Not applicable        45,860        JFY09 MAMIZU J-001 UTILITIES   NEGOTIATED        FULL AND OPEN          5
                                                                                                AND SITE IMPROVEMENTS,         PROPOSAL/         COMPETITION
                                                                                                PHASE I, APRA HARBOR, NAVAL    QUOTE
                                                                                                BASE GUAM: DEDUCTIVE
                                                                                                MODIFICATION TO DESIGN AND
                                                                                                PROVIDE CMU WALL FOR VIF
                                                                                                BLDG AND ACTIVATION SWITCH
                                                                                                                                                                                Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                                  Mechanisms Data (Section 2835(e)(1)(E))




        February 1, 2013
Guam Realignment Report
                           	         Section 2835(e)(1)(E)
                          	         Section 2835(e)(1)(E)

                                                                            Amount Obligated
                                        Contract, Grant,                       January 1-
                                         Agreement, or                       December 31,
                                         Other Funding                            2012                                        Method Used to                         Offers
                              Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description        Solicit Offers    Offers Solicited   Received
                              DON      N6274211C0400       Not applicable      (301,396)       JFY09 MAMIZU J-001 UTILITIES   NEGOTIATED        FULL AND OPEN          5




February 1, 2013
                                                                                               AND SITE IMPROVEMENTS,         PROPOSAL/         COMPETITION
                                                                                               PHASE I, APRA HARBOR, NAVAL    QUOTE
                                                                                               BASE GUAM: DEDUCTIVE
                                                                                               MODIFICATION TO DELETE
                                                                                               ALL CCTV CAMERAS AND




Guam Realignment Report
                                                                                               ASSOCIATED CABLE WORK AT
                                                                                               THE SITE AND CCTV BLDG
                              DON      N6274211D1800          10,000,000      1,188,390        TASK ORDER FOR P0081 MCBH      ARCHITECT-   FULL AND OPEN               1
                                                                                               OPTIMIZATION PLAN              ENGINEER FAR COMPETITION
                                                                                                                              6.102        AFTER
                                                                                                                                           EXCLUSION OF
                                                                                                                                                                               Mechanisms Data (Section 2835(e)(1)(E))




                                                                                                                                           SOURCES
                              DON      N6274211D1801          50,000,000        312,965        "MODIFICATION TO PROVIDE       ARCHITECT-   FULL AND OPEN               5
                                                                                               THE FOLLOWING CHANGES          ENGINEER FAR COMPETITION
                                                                                               TO TASK ORDER 0005 FOR         6.102
                                                                                               ALTERNATIVE ANALYSIS FOR
                                                                                               POSSIBLE LIVE FIRING RANGE
                                                                                               ALTERNATIVES ON GUAM:




      60
                                                                                               1. LOCATIONS TO BE
                                                                                                                                                                               Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                               ANALYZED TO INCLUDE
                                                                                               ANDERSON AFB NORTHWEST
                                                                                               FIELD AND FINEGAYAN
                                                                                               ALTERNATIVES A & B.
                                                                                               2. TASK 1 - RECONFIRM
                                                                                               FIRING RANGE, LOADING
                                                                                               AND SUPPORT FACILITIES
                                                                                               REQUIREMENTS.
                                                                                               3. TASK 2 - A THIRD SITE
                                                                                               VISIT IS ADDED TO EXAMINE
                                                                                               AAFB NORTHWEST FIELD AND
                                                                                               FINEGAYAN ALTERATIVES A&B.
                                                                                               4. TASK 7 - PROVIDE AIRSPACE
                                                                                               CONSULTATION FOR ALL
                                                                                               ALTERNATIVES REGARDING
                                                                                               POTENTIAL IMPACTS OF SDZS
                                                                                               ON GUAM AIRSPACE."
                                                                             Amount Obligated
                                         Contract, Grant,                       January 1-
                                          Agreement, or                       December 31,
                                          Other Funding                            2012                                      Method Used to                        Offers
                               Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description      Solicit Offers   Offers Solicited   Received
                               DON      N6274211D1801          50,000,000       (202,168)       MODIFICATION TO DOCUMENT,    ARCHITECT-   FULL AND OPEN              5
                                                                                                ASSESS, EVALUATE THE         ENGINEER FAR COMPETITION
                                                                                                HISTORIC SIGNIFICANCE OF,    6.102
                                                                                                AND PRODUCE GEOGRAPHIC
                                                                                                INFORMATION SYSTEM (GIS)
                                                                                                MAPS AND DATA LAYERS
                                                                                                FOR CULTURAL SITES AND
                                                                                                HISTORIC ARCHITECTURE/
                                                                                                STRUCTURES LOCATED IN THE
                                                                                                SURVEY AREAS. TASK ORDER
                                                                                                0007 IS FOR ARCHAEOLOGICAL
                                                                                                SURVEYS AND CULTURAL
                                                                                                RESOURCE STUDIES IN
                                                                                                SUPPORT OF THE LIVE FIRE
                                                                                                TRAINING RANGE COMPLEX
                                                                                                SEIS.




      61
                               DON      N6274211D1801          50,000,000        544,820        MODIFICATION TO DOCUMENT,    ARCHITECT-   FULL AND OPEN              5
                                                                                                ASSESS, EVALUATE THE         ENGINEER FAR COMPETITION
                                                                                                HISTORIC SIGNIFICANCE OF,    6.102
                                                                                                AND PRODUCE GEOGRAPHIC
                                                                                                INFORMATION SYSTEM (GIS)
                                                                                                MAPS AND DATA LAYERS
                                                                                                FOR CULTURAL SITES AND
                                                                                                HISTORIC ARCHITECTURE/
                                                                                                STRUCTURES LOCATED IN
                                                                                                THE PROPOSED APE FOR
                                                                                                THE SITING OF A LIVE FIRE
                                                                                                TRAINING RANGE COMPLEX
                                                                                                AND MAIN CANTONMENT
                                                                                                ON THE ISLAND OF GUAM.
                                                                                                TASK ORDER 0007 IS FOR
                                                                                                ARCHAEOLOGICAL SURVEYS
                                                                                                AND CULTURAL RESOURCE
                                                                                                STUDIES IN SUPPORT OF THE
                                                                                                LIVE FIRE TRAINING RANGE
                                                                                                COMPLEX SEIS.
                                                                                                                                                                             Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                               Mechanisms Data (Section 2835(e)(1)(E))




        February 1, 2013
Guam Realignment Report
                           	         Section 2835(e)(1)(E)
                          	         Section 2835(e)(1)(E)

                                                                            Amount Obligated
                                        Contract, Grant,                       January 1-
                                         Agreement, or                       December 31,
                                         Other Funding                            2012                                     Method Used to                        Offers
                              Agency    Mechanism Title    Ceiling Amount     (U.S. Funds)          Scope / Description     Solicit Offers   Offers Solicited   Received
                              DON      N6274211D1801          50,000,000        637,283        MODIFICATION TO PREPARE A   ARCHITECT-   FULL AND OPEN              5




February 1, 2013
                                                                                               REMOTE SENSING WETLAND      ENGINEER FAR COMPETITION
                                                                                               MAPPING AND BIOLOGICAL      6.102
                                                                                               SURVEYS FOR UNITED STATES
                                                                                               MARINE CORPS TRAINING
                                                                                               RANGE ALTERNATIVES IN




Guam Realignment Report
                                                                                               SUPPORT OF THE LIVE
                                                                                               FIRE TRAINING RANGE
                                                                                               COMPLEX SUPPLEMENTAL
                                                                                               ENVIRONMENTAL IMPACT
                                                                                               STATEMENT (LFTRC-SEIS) ON
                                                                                               GUAM.
                                                                                                                                                                           Mechanisms Data (Section 2835(e)(1)(E))




                              DON      N6274211D1801          50,000,000      3,769,519        TASK ORDER FOR GUAM AND     ARCHITECT-   FULL AND OPEN              5
                                                                                               CNMI MILITARY RELOCATION    ENGINEER FAR COMPETITION
                                                                                               PLANNING REPORT IN          6.102
                                                                                               SUPPORT OF THE SEIS AND
                                                                                               ROD
                              DON      N6274211D1801          50,000,000        605,440        TASK ORDER FOR              ARCHITECT-   FULL AND OPEN              5
                                                                                               SOCIOECONOMIC STUDY         ENGINEER FAR COMPETITION




      62
                                                                                               GUAM AND CNMI MILITARY      6.102
                                                                                                                                                                           Section 5: Contracts, Grants, Agreements, or Other Funding




                                                                                               RELOCATION SUPPLEMENTAL
                                                                                               ENVIRONMENTAL IMPACT
                                                                                               STATEMENT
                              DON      N6274211D1801          50,000,000      5,571,928        TASK ORDER TO               ARCHITECT-   FULL AND OPEN              5
                                                                                               PROVIDE SUPPLEMENTAL        ENGINEER FAR COMPETITION
                                                                                               ENVIRONMENTAL IMPACT        6.102
                                                                                               STATEMENT (SEIS) - DRAFT,
                                                                                               FINAL AND RECORD OF
                                                                                               DECISION FOR GUAM AND
                                                                                               CNMI MILITARY RELOCATION
                           Contracts, Grants, Agreements, or Other Funding Mechanisms Data
                           For CY 2012, the DOT reported 3 contracts and 12 grants, totaling approximately $3.6 million. Table 12 identifies DOT contracts, grants,
                           agreements, or other funding mechanisms.

                                                               Table 12. Other Federal Agency Contracts, Grants, Agreements, or Other
                                                                  Funding Mechanisms Supporting the Guam Military Realignment
                                                                                                                                               Cost Incurred
                                                                                                               Total         Cost Incurred      January 1 -    Estimated
                                                                                                             Estimated       to Date (US or    December 31,     Costs to
                                 Agency             Project             Description/Scope     Start Date       Cost           GOJ Funds)           2012        Complete
                               DOT         MARAD - Contract                $50,000,000        $2,606,494   Program           Full and Open    Unlimited           5
                                           DTMA1D10002                                                     Management
                               DOT         DOI Office of Insular             1,100,000                 -   Support the
                                           Affairs (MARAD)                                                 modernization
                                                                                                           efforts for the
                                                                                                           Port of Guam
                                                                                                           Improvement
                                                                                                           Enterprise
                                                                                                           Fund
                               DOT         DOC Economic                      2,000,000            19,338   Preliminary




      63
                                           Development Agency                                              Design &
                                           (MARAD                                                          Engineering
                                                                                                           Services for
                                                                                                           the Port of
                                                                                                           Guam
                               DOT         "FHWA - Grant to                  3,696,610                 -   Prepare NEPA      ID/IQ RFP        Base Contract       5
                                           Government of Guam                                              Document and                       - Open
                                           GU-NH-IPMS(002)                                                 Coordination                       Advertisement
                                           Island Wide Program                                             between
                                           Management Services                                             Government of
                                           (funds from Marine Corps)                                       Guam DPW,
                                           DTFH6109X50001                                                  FHWA, and
                                           (Advice/Mod #1)"                                                DOD
                               DOT         "FHWA - Grant to                  1,595,940                 -   Prepare NEPA      ID/IQ RFP        Base Contract       5
                                           Government of Guam                                              Document and                       - Open
                                           GU-NH-IPMS(002)                                                 Coordination                       Advertisement
                                           Island Wide Program                                             between
                                           Management Services                                             Government of
                                           (funds from Marine Corps)                                       Guam DPW,
                                           DTFH6109X50001                                                  FHWA, and
                                           (Advice/Mod #3)"                                                DOD
                                                                                                                                                                           Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                             Mechanisms Data (Section 2835(e)(1)(E))




        February 1, 2013
Guam Realignment Report
                           	         Section 2835(e)(1)(E)
                          	         Section 2835(e)(1)(E)

                                                                                                                                    Cost Incurred
                                                                                                     Total        Cost Incurred      January 1 -    Estimated
                                                                                                   Estimated      to Date (US or    December 31,     Costs to
                                Agency            Project       Description/Scope   Start Date       Cost          GOJ Funds)           2012        Complete
                              DOT         "FHWA - Grant to              80,000               -   Prepare NEPA     ID/IQ RFP        Base Contract       5
                                          Government of Guam                                     Document and                      - Open




February 1, 2013
                                          GU-NH-IPMS(002)                                        Coordination                      Advertisement
                                          Island Wide Program                                    between
                                          Management Services                                    Government of
                                          (funds from BUMED)                                     Guam DPW,
                                          DTFH6109X50001                                         FHWA, and




Guam Realignment Report
                                          (Advice/Mod #2)"                                       DOD
                              DOT         "FHWA - Grant to           2,949,137               -   Prepare          ID/IQ RFP        Base Contract       5
                                          Government of Guam                                     Design/Build                      - Open
                                          GU-NH-IPMS(002)                                        request for                       Advertisement
                                          Island Wide Program                                    Qualifications
                                          Management Services                                    for Proposals
                                                                                                                                                                Mechanisms Data (Section 2835(e)(1)(E))




                                          27XX66IPMS00273P0                                      for FY2010
                                          ($2,646,633.08)                                        DAR projects,
                                          27XX66IPMS00273V0                                      Route 1 east
                                          ($302,504.00)"                                         of Route 4,
                                                                                                 Route 11/1,
                                                                                                 Route 11,
                                                                                                 Route 1/8, and




      64
                                                                                                 Agana Bridge
                                                                                                                                                                Section 5: Contracts, Grants, Agreements, or Other Funding




                              DOT         "FHWA - Grant to             570,740               -   Consultant       RFP              Open                3
                                          Government of Guam                                     for Route 1/3                     Advertisement
                                          GU-NH-0001(125)                                        Intersection
                                          27XX66000112573P0"
                              DOT         "FHWA - Grant to           2,182,765               -   Consultant for   RFP              Open                3
                                          Government of Guam                                     Route 3 from                      Advertisement
                                          GU-NH-0003(105)                                        Route 28 to
                                          27XX66000310573V0"                                     Chalan Kareta
                              DOT         "FHWA - Grant to          11,489,814        250,000    Construction     RFP              Open                3
                                          Government of Guam                                     for Route 1                       Advertisement
                                          GU-DAR-TI01(001)                                       Agana Bridges
                                          27XX66TI0173V0"                                        and Route 1/8
                                                                                                 Intersection
                              DOT         "FHWA - Grant to          14,016,299        246,508    Construction   RFP                Open                3
                                          Government of Guam                                     for Route 11                      Advertisement
                                          GU-DAR-0011(008)                                       and Route 1/11
                                          27XX66001100873V0"                                     Intersection
                                                                                                                                       Cost Incurred
                                                                                                        Total        Cost Incurred      January 1 -    Estimated
                                                                                                      Estimated      to Date (US or    December 31,     Costs to
                                 Agency           Project          Description/Scope   Start Date       Cost          GOJ Funds)           2012        Complete
                               DOT         "FHWA - Grant to              2,117,165              -   Construction     ID/IQ RFP        Base Contract       5
                                           Government of Guam                                       Management                        - Open
                                           GU-NH-PCMS(001)                                          for Route                         Advertisement
                                           27XX66PCMS00173V0"                                       1 Agana
                                                                                                    Bridges,
                                                                                                    Route 1/8
                                                                                                    Intersection,
                                                                                                    Route 11 and
                                                                                                    Route 1/11
                                                                                                    Intersection
                               DOT         "FHWA - Grant to               185,000        185,000    Professional     RFP              Base Contract       3
                                           Government of Guam                                       Services for                      - Open
                                           GU-NH-PSAS(001)"                                         Archaeological                    Advertisement
                                                                                                    Support
                               DOT         "FHWA - Grant to               299,485        299,485    Technical        RFP              Base Contract       1
                                           Government of Guam                                       Support                           - Open
                                           GU-NH-TSIS(002)"                                         Services                          Advertisement




      65
                                                                                                    Island-wide
                                                                                                    Quality
                                                                                                    Assurance
                                                                                                    Testing
                               DOT         "FHWA - Grant to                33,120          33,120   Technical        RFP              Base Contract       2
                                           Government of Guam                                       Support                           - Open
                                           GU-NH-TSIS(001)"                                         Services                          Advertisement
                                                                                                    Island-wide
                                                                                                    Geotechnical
                                                                                                    Engineering
                           Source: DOT’s response to DoD OIG data call, 1/10/2013.
                                                                                                                                                                   Section 5: Contracts, Grants, Agreements, or Other Funding
                                                                                                                                                                                     Mechanisms Data (Section 2835(e)(1)(E))




        February 1, 2013
Guam Realignment Report
                           	         Section 2835(e)(1)(E)
            Acronyms


            Acronyms
            DCAA			     Defense Contract Audit Agency
            DOI			      Department of the Interior
            DON			      Department of the Navy
            DOT			Department of Transportation
            DPRI	 		    Defense Posture Review Initiative
            GOJ 			     Government of Japan
            ICG 			     Interagency Coordination Group of Inspectors General for Guam Realignment
            JGPO	 		    Joint Guam Program Office
            MARAD		     Maritime Division
            MILCON		    Military Construction
            NAVFAC 		   Naval Facilities Engineering Command
            NAVFACPAC		 Naval Facilities Engineering Command, Pacific
            NDAA			     National Defense Authorization Act
            OIG 			     Office of Inspector General
Acronyms
	




           Guam Realignment Report
                                                          66
           February 1, 2013
 Department of Defense Office of Inspector General
             4800 Mark Center Drive
           Alexandria, VA 22350-1500

Department of the Interior Office of Inspector General
       1849 C Street, N.W. Mail Stop 4428
             Washington, D.C. 20240

  The report is available online at: www.dodig.mil
